<html>
<title> - REVIEW OF THE ANTI-DRUG CERTIFICATION PROCESS</title>
<body><pre>[Senate Hearing 107-18]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 107-18

              REVIEW OF THE ANTI-DRUG CERTIFICATION PROCESS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MARCH 1, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                   U.S. GOVERNMENT PRINTING OFFICE
71-540                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
CRAIG THOMAS, Wyoming                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin
LINCOLN D. CHAFEE, Rhode Island      PAUL D. WELLSTONE, Minnesota
GEORGE ALLEN, Virginia               BARBARA BOXER, California
SAM BROWNBACK, Kansas                ROBERT G. TORRICELLI, New Jersey
                                     BILL NELSON, Florida
                   Stephen E. Biegun, Staff Director
                Edwin K. Hall, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Aronson, Hon. Bernard William, managing partner, ACON 
  Investments; and former Assistant Secretary of State for Inter-
  American Affairs, Washington, DC...............................    38
Beers, Hon. R. Rand, Assistant Secretary of State for 
  International Narcotics and Law Enforcement, Department of 
  State, Washington, DC..........................................    25
    Prepared statement...........................................    27
    Certification decision memo, March 1, 2001...................    29
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................    20
Boxer, Hon. Barbara, U.S. Senator from California, prepared 
  statement......................................................     5
Gilman, Hon. Benjamin A., (R-NY), U.S. House of Representatives..    11
    Prepared statement...........................................    13
Grassley, Hon. Charles E., U.S. Senator from Iowa................     7
    Prepared statement...........................................     9
Hutchison, Hon. Kay Bailey, U.S. Senator from Texas..............    10
Reyes, Hon. Silvestre, (D-TX), U.S. House of Representatives.....    15
    Prepared statement...........................................    16

Statements submitted for the record:

    Drug Strategies, Mathea Falco, president, Washington, DC.....    43
    Washington Office on Latin America...........................    47

                                 (iii)

  

 
             REVIEW OF THE ANTI-DRUG CERTIFICATION PROCESS

                              ----------                              


                        THURSDAY, MARCH 1, 2001

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Lincoln D. 
Chafee presiding.
    Present: Senators Chafee, Biden, Dodd, Feingold, Boxer, and 
Bill Nelson.
    Senator Chafee. The hearing will come to order.
    Today the Foreign Relations Committee meets to receive 
testimony on and discuss the so-called anti-drug certification 
process. This law requires the President to eliminate most 
forms of U.S. foreign aid and oppose international development 
loans for a nation deemed not to be cooperating fully with the 
United States in its anti-narcotics efforts.
    Until the mid-1980's, the U.S. Government's linking of 
anti-drug policy to foreign policy largely involved little more 
than the granting of discretionary authority to the executive 
branch. Congress became frustrated with the State Department's 
unwillingness to confront governments of foreign countries that 
were major sources and conduits of illegal narcotics.
    So in 1986 Congress passed a $1.4 billion comprehensive 
anti-drug abuse law. Provisions of this law require the 
President to impose economic sanctions, including the denial of 
U.S. foreign aid to any nation that is not cooperating fully in 
our anti-drug efforts. I would note that this law passed the 
Senate by a vote of 97 to 2, without objection to establishment 
of this certification process.
    So today, 15 years later, where do things stand? It can 
certainly be said with accuracy that the drug certification law 
has drawn the attention of governments abroad. Cooperation 
abroad with the U.S. anti-drug efforts has increased markedly. 
But this law also has generated resentment among nations who 
view the process as overbearing and perhaps arrogant, 
particularly given that the U.S. is a substantial drug-
consuming nation.
    In short, the law has, some might argue, hindered the 
conduct of our foreign policy. A review of the most recent 
listings of major certified and decertified nations is 
illuminating. On November 10, 1999, President Clinton listed 25 
major drug-producing and drug transit countries. Then on March 
1, 2000, of these 25 majors he certified 19 and decertified 6. 
Then of these six decertified countries, he waived sanctions on 
four for national interest concerns. That left just two 
countries on which the law's sanctions were applied, 
Afghanistan and Burma, certainly nations that are not major 
beneficiaries of U.S. aid regardless of the drug issue.
    This experience strikes me as more of an exercise in 
process and of limited effect on our policy. It is also likely 
one of several reasons why a consensus seems to have developed 
that alternatives to this process ought to be given a very 
close look.
    I do hope today's hearing will give us an opportunity to 
fully explore these proposed changes to current law, and I do 
look forward to the expert witnesses who will provide 
testimony.
    Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman. Let me 
first of all thank you for hosting and holding this very, very 
important hearing on an issue that has consumed a great deal of 
the Congress' attention over the last decade and a half, the 
certification issue, and rightly so, given the tremendous 
interest there is in this country with the devastating effects 
of narcotic consumption. Sixteen thousand lives are lost every 
year in this country in drug-related deaths. Obviously, we as 
representatives of our various constituencies reflect a desire 
in this country to do something about this, do something about 
this to try and reduce the pain and suffering associated with 
this problem.
    It was out of that frustration that this legislation was 
born a decade and a half ago. It is important, I think, at this 
juncture with a new administration, a new government in Mexico 
that has committed itself, at least rhetorically, to addressing 
this issue, that we examine whether or not there is a better 
way of dealing with the issue of cooperation among producing, 
money-laundering, transit, consuming countries, all of those 
nations that are involved in one aspect or another of the drug 
business.
    So I think this is very worthwhile that we are gathering 
here today. We are going to hear from some very, very good 
witnesses this morning. I am pleased particularly that we have 
so many interested Members of Congress. Senator Grassley and 
Senator Kay Bailey Hutchison I know are going to be before us; 
Representatives Ben Gilman and Silvestre Reyes, the head of the 
Hispanic Caucus and my good friend, who I had the privilege of 
testifying with the other day before the Congressional Black 
Caucus. I am pleased to be with you again here this morning.
    So, Mr. Chairman, we have held hearings from time to time 
on this issue of counternarcotics cooperation with respect to 
specific countries. We have not for some time looked at the 
issue of the certification process itself, and that is what you 
are going to do and that is why I think this is worthwhile.
    I believe it is important to do so. This is a procedure, as 
I said, that has been in effect since the mid-eighties. The 
annual certification process has from time to time provoked a 
great deal of controversy and debate in both the House and the 
Senate. Presidential determinations with respect to whether a 
particular country had cooperated fully in any given year were 
challenged in the Congress, but never overturned.
    Senator John McCain and I offered legislation a few years 
ago to get rid of the certification process and try and come up 
with something new. Senator Paul Coverdell of Georgia had 
proposed some alternative ideas that we were never able to 
enact into legislation, but I thought were very intriguing. The 
congressional controversy and sometimes highly critical debate 
did cause significant friction in the bilateral relationships 
with respect to the country of concern where the debated 
certification was occurring, usually Mexico.
    I would not suggest for one moment, Mr. Chairman, that the 
threat posed by illicit drug production and consumption-related 
crimes is not very, very serious. The international impact is 
serious and of great concern to all of us. However, of even 
greater concern to me personally are the effects it is having 
here at home. Last year Americans spent more than $60 billion 
to purchase illegal drugs. Nearly 15 million Americans 12 years 
of age and older use illegal drugs, including 1.5 million 
cocaine users, 208,000 heroin addicts in the United States, and 
more than 11 million smokers of marijuana.
    This menace is not just confined to inner cities or the 
poor. Illegal drug use occurs among members of every ethnic and 
socioeconomic group in the United States. The human and 
economic costs of illegal drug consumption by Americans is also 
enormous. I mentioned already, 16,000 people die annually as a 
result of drug-related deaths. Drug-related illnesses, death, 
and crime cost the United States approximately $100 billion 
annually, including the cost of lost productivity, premature 
death, and incarceration.
    This is an enormously lucrative business. Drug trafficking 
generates an estimated revenues of $400 billion a year 
annually. The United States has spent more than $30 billion in 
foreign interdiction and source country counternarcotics 
programs since 1981. Despite impressive seizures on the border, 
on the high seas, and other countries, foreign drugs are 
cheaper and more readily available in the United States today 
than they were two decades ago when we began an intensive 
effort in this area.
    For much of that time, the annual certification process has 
been in effect. Clearly, whatever else one thinks about 
certification, one must conclude that it has not been the 
silver bullet with respect to eliminating America's supply or 
demand for illicit drugs.
    Over the course of the 15 years that the certification 
procedures have been in effect, there have been only minor 
modifications to the statute. I believe the time has come to 
make an assessment as to whether it continues to further our 
national security and foreign policy objectives. Is it really 
doing the job with respect to promoting effective international 
cooperation to combat illicit drug production, sales, and 
consumption, or could we develop some other means that would 
better serve our interests in this important area and the 
interests of our allies who seek to cooperate with us in this 
regard?
    As you know, Mr. Chairman, I have introduced legislation to 
suspend the grading aspects of the certification. I have done 
so, Mr. Chairman, to create an atmosphere of some goodwill in 
which President Bush can discuss with other heads of state from 
Mexico, Colombia, Peru, Bolivia, ways to improve international 
cooperation among producing, transit, and consuming nations.
    During the 2-year suspension period, the Congress would 
continue to receive detailed reports with respect to what is 
being accomplished in the areas of eradication, interdiction, 
extradition of drug kingpins, efforts to combat money-
laundering, et cetera. Moreover, the President has the option, 
should he choose, to continue the certification process with 
respect to a country or countries if he determines that this 
would further bilateral counternarcotics cooperation with 
respect to that nation or nations.
    Mr. Chairman, I have visited a number of these countries 
over the years and I have met with many heads of state, 
particularly those in our own hemisphere. I have yet to have a 
conversation with one of them that thought that our 
certification process was helpful to them in their national 
efforts to develop and sustain meaningful and effective 
counternarcotics programs.
    Perhaps it is time at least to listen to whatever proposals 
they might suggest to do a better job in this area. We lose 
nothing by trying and a great deal by making the effort.
    So with that, Mr. Chairman, I again thank you for hosting 
this committee hearing this morning. I am looking forward to 
hearing from our colleagues. As I mentioned earlier before they 
arrived, members all have a deep interest in the subject 
matter, worked hard at it for a number of years. I am anxious 
to hear their thoughts on the subject matter and other members 
of the committee.
    Senator Chafee. Thank you, Senator Dodd.
    Senator Boxer.
    Senator Boxer. Thank you so much, Senator Chafee, for 
holding this hearing. I also want to welcome our distinguished 
panel of witnesses, Senators Hutchison and Grassley and 
Congressman Gilman and Congressman Reyes. I have had the 
privilege to work with several of my colleagues, including 
Senator Hutchison, and I will talk more about her colleague 
Senator Phil Gramm, with whom I am introducing legislation 
today on this very subject, actually re-introducing it.
    We have all been working hard to try and come up with a 
solution. Senator Feinstein has teamed with Senator Hutchison, 
I have teamed with Senator Gramm, and Senator Dodd has 
introduced legislation.
    I really want to say to Senator Helms, who is not here, I 
appreciate this hearing because I thought it would be important 
to hear all these various proposals. I think we need some 
changes, although I do respect Congressman Gilman's points that 
he is going to make, I think quite eloquently because I have 
read his written testimony, on behalf of the current process.
    But I believe for the last several years we have really had 
no good options before us when it comes to this process. I 
think that became apparent in our annual debate over the 
certification of Mexico's efforts in combating illegal drugs. 
Certifying Mexico has been very difficult to do in light of the 
upsetting statistics showing that Mexico is a major point of 
production and transit for drugs entering the United States.
    Coming from California, and I know I speak for all the 
border states, this is a horrific problem for our children, for 
our families, for our people. I continue to be concerned about 
the influence of powerful drug cartels in Mexico. In fact, in 
1998 I joined 44 other Senators in voting in favor of 
decertifying Mexico. I want you to know that was a very 
difficult vote for me, because Mexico is our friend. But I 
think when you have a friend you should not lie to your friend. 
You should be honest. So for me it was really hard to say I can 
certify that there is really no problem.
    That is what we really care about today, to see if we can 
come up with other options for dealing with this situation. 
Right now we have the worst of all worlds, where we either have 
to turn our back on a problem or we humiliate a friend. That is 
just not a good choice.
    I would ask unanimous consent that my entire statement be 
placed in the record. Mr. Chairman, I would like to just spend 
a minute talking about the legislation that Senator Phil Gramm 
and I have reintroduced, the same legislation we introduced 
last year. We hope it will lead to a more honest and realistic 
way of addressing the international drug problem. We will 
replace confrontation with cooperation. We are encouraging 
nations to join the United States in fighting drugs, but we 
would eliminate a process which strains our relations with our 
friends such as Mexico.
    Our legislation would exempt from the certification process 
those countries that have a bilateral agreement with the United 
States regarding the production, distribution, interdiction, 
demand reduction, border security, and cooperation among law 
enforcement agencies. So in other words, what we are saying to 
countries is, join with us, sign a bilateral agreement with us 
on all these areas, and then you will not have to be subjected 
to the certification process. But we do not do away with the 
United States process, because we think it is a hammer that is 
unfortunately needed if a country turns its back on this offer 
from the United States to work in a cooperative way.
    So again, Mr. Chairman, thank you very much and I look 
forward to reaching some consensus on this so we can move 
forward.
    [The prepared statement of Senator Boxer follows:]

              PREPARED STATEMENT OF SENATOR BARBARA BOXER

    Senator Chafee, thank you for holding this hearing on the drug 
certification process. I want to welcome our witnesses on the first 
panel this morning, Senator Hutchison, Senator Grassley, Congressman 
Gilman and Congressman Reyes. It is a pleasure to see all of you this 
morning. I am so pleased to see how much interest there is in this 
important issue.
    Over the last several years, Congress has had no good options when 
it comes to the certification of major drug producing and drug transit 
countries. This has been most apparent in our annual debate over the 
certification of Mexico's efforts in combating illicit drugs.
    Certifying Mexico has been very difficult to do in light of the 
upsetting statistics showing that Mexico is a major point of production 
and transit for drugs entering the United States. I have also been, and 
continue to be, concerned about the influence of powerful drug cartels 
in Mexico. In fact, in 1998, I joined 44 other Senators in voting in 
favor of decertifying Mexico.
    Nevertheless, I join many of my colleagues in the belief that the 
certification process does not work as it was intended. In some cases, 
what we have now is the worst of both worlds. The certification process 
subjects some of our closest allies and trading partners to an annual 
ritual of finger-pointing and humiliation rather than supporting mutual 
efforts to control illicit drugs.
    Today, Senator Gramm and I are reintroducing legislation which we 
hope will lead to a more honest and realistic way of addressing the 
international drug problem. By replacing confrontation with 
cooperation, we are encouraging nations to join the United States in 
fighting drugs while eliminating a process which strains our relations 
with allies such as Mexico.
    Our legislation would exempt from the certification process those 
countries that have a bilateral agreement with the United States.
    These agreements would have to address issues relating to the 
control of illicit drugs--including production, distribution, 
interdiction, demand reduction, border security, and cooperation among 
law enforcement agencies.
    This alternative will give both countries a way to work together 
for real goals with real results. Make no mistake, this will not give 
Mexico or any other country a free pass on fighting illicit drugs. On 
the contrary, our bill encourages the adoption of tough bilateral 
agreements. It specifically spells out issues that must be addressed in 
the agreements.
    We specifically require the adoption of ``timetables and objective 
and measurable standards.'' And, we require semi-annual reports 
assessing the progress of both countries under the bilateral agreement. 
If progress is not made, the country returns to the annual 
certification process, which involves the possibility of sanctions.
    It is sure sign of the importance of this issue that we now have 
several bills to get us out of the drug certification quagmire. It is 
particularly important to those of us from border states, which are hit 
so hard by the traffic in illegal drugs.
    Thank you Mr. Chairman.

    Senator Chafee. Thank you, Senator Boxer.
    Senator Nelson.
    Senator Nelson. Mr. Chairman, I thank you. I have recently 
visited Colombia with the Armed Services Committee and I was 
struck by several things and I learned a lot. The first thing I 
was struck with was not not only are we fighting the 
narcotraffickers, but the United States interests are clearly 
entwined with trying to keep an elected democracy viable and 
not taken over by the drug lords.
    So that the United States clearly had in its interest in a 
country like Colombia not only fighting the drug traffick, but 
also helping the government remain viable as an elected 
democracy.
    The other impression that I came away with, having gone 
into two air strips that were carved out of the jungle in 
southern Colombia, was that we are starting to be effective in 
our spraying of Roundup, in my judgment not enough, yet they 
have pulled out of a place called Putumayo, which is the major 
production of coca. But even if we are effective there, it is 
going to pop up someplace else, if not in Colombia maybe across 
the border in Ecuador or down in Brazil or wherever.
    So as we approach this--and I know the subject of this 
hearing is the certification process, but I think we have got 
to constantly remind ourselves that we have got to do something 
about the demand side of the equation, about trying to help our 
children be educated as to the dangers of taking drugs, and 
then when they do get hooked trying to help them through 
treatment and rehabilitation.
    So one of the reasons I am so happy to be on this committee 
is for this very subject. I find commonality on this subject 
with the Armed Services Committee, on which I serve also. So I 
am looking very much forward to this very distinguished panel: 
my old friend Congressman Gilman that I had the privilege of 
serving with; and of course I was back in the House in the days 
when Senator Grassley was even back there. So I am delighted to 
be here and hear your testimony.
    Thank you, Mr. Chairman.
    Senator Dodd. I should point out, by the way, that both 
Senator Chafee and I preceded Senator Nelson by about a week, 
along with Senator McCain and Senator Fred Thompson and Senator 
Hagel, who made the same, I think followed the same trip to 
Colombia and Ecuador and down to Trace Ischenis and into the 
Lanandrea military base and the Monta facility in Ecuador. I 
think we found it very worthwhile as well, and I am sure we 
will bring that up here today, and some of the points Senator 
Nelson raised are very legitimate.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you, Senator Dodd. Thank you, Senator 
Nelson.
    Senator Grassley, welcome.

 STATEMENT OF HON. CHARLES E. GRASSLEY, U.S. SENATOR FROM IOWA

    Senator Grassley. Thank you very much. Glad to be with you. 
Do you want me to start, then?
    Senator Chafee. Yes, please. Lead off.
    Senator Grassley. Thank you, Senator Chafee. Thank you, 
Senator Dodd and all of our colleagues, including those who are 
here to testify.
    Today is that annual date that the President must submit 
his findings on the counterdrug cooperation efforts. That 
process obviously is somewhat controversial or we would not be 
here today for this hearing or with the different ideas to 
change it.
    Before discussing my bill, S. 376, I want to say a few 
things about the controversy surrounding the certification 
process. I begin by quoting the basic law of the mid-1980's, 
chapter 8, Foreign Assistance Act: ``International narcotics 
trafficking poses an unparalleled transnational threat to 
today's world and its suppression is among the most important 
foreign policy objectives of the United States.
    ``Under the Single Convention on Narcotic Drugs, 1961, and 
under the United Nations Convention Against Illicit Trafficking 
in Narcotics and Psychotropic Substances, parties are required 
to criminalize certain drug-related activities.'' Then 
continuing to quote: ``International narcotics control programs 
should include as a priority goal the suppression of illicit 
manufacture of and trafficking in narcotics drugs, money-
laundering, and precursor chemical diversion.'' The 
international community should provide assistance, where 
appropriate, to those producers and transit countries which 
require assistance because, quoting again, ``effective 
international cooperation is necessary to control the illicit 
cultivation, production, and smuggling, trafficking in, and 
abuse of narcotic drugs.''
    The law empowers the President to conclude international 
agreements to implement these objectives. It then requires a 
method of accountability, and that is what this process is 
about. What the law says in summary is that we acknowledge that 
international production and trafficking are bad, that the 
United States and other countries have obligations under their 
own laws and under international laws to stop production, 
trafficking, and use, and that it is reasonable and responsible 
to expect these countries and others to be accountable for 
those efforts, even if they do not want to be and do not like 
it.
    There seems to be, however, some dissatisfaction with these 
expectations. We hear charges of unfairness, of unilateral 
decisionmaking, of living in a glass house. While I understand 
that some are unhappy, I do not think it is time to throw the 
baby out with the bath water. I do not believe that the 
circumstances that led Congress some 14 years ago to establish 
this standard have substantially changed. If anything, 
production and trafficking are worse. The criminal 
organizations engaged in these activities have grown more 
powerful and bolder.
    Our obligations to protect and defend the people across the 
country is no less real or demanding. The need for tough 
responses and tough-mindedness about those responses remains a 
call upon our best efforts.
    I do not believe that the need for accountability is any 
less today than it has ever been. The United States, with 
others if possible, without if necessary, must be a leader in 
ensuring that we and others are taking adequate steps to meet 
our obligations. This is not some philosophical discussion. It 
involves what we propose to do about something very basic that 
is happening across the land. Drug availability and use are 
causing direct and real harm today, right now, in our homes, 
schoolyards, neighborhoods, in our hospitals and on our 
streets.
    Most of the drugs that do this harm are from overseas. They 
are produced and trafficked by major criminal gangs. In some 
cases those activities are aided and abetted by foreign 
governments or corrupt officials with them. This is not 
something that we can or should ignore, overlook, or make 
excuses for. We do not do this in respect to our battle against 
terrorism and the state support of state terrorists, and we 
should expect no less when it comes to drugs.
    I repeat the words from the law. This is one of our most 
important political, foreign policy objectives.
    That being said, I do believe that we can make some changes 
in the current certification process. The changes I propose 
will retain the important accountability aspects while 
retooling efforts to be more effective. Our goal should not be 
to spend time debating the certification process. We need to 
spend our time in doing something about the problem it is meant 
to address.
    I also believe, in part a result of certification, that 
other countries now take the need to deal with drug trafficking 
more seriously. It is important to take that fact into account. 
That is why Senator DeWine and I offer S. 376. A quite simple 
approach. It replaces the current three-tiered certification 
decisionmaking process with a single determination. My proposal 
requires a decertification notice only. There is no more 
``major list.'' The focus is on the international bad actors.
    This parallels what we do with state support of terrorism. 
By doing this, we focus attention then on the bad guys. We keep 
the important accountability aspect of our law. We keep the 
useful reporting process. We keep the leverage with bad actors 
that is one of the most useful features of the law.
    But the change gives us a chance to reduce the tension with 
some of our friends and allies over the process. It gives us 
some Zantac for the foreign policy heartburn that we seem to 
have had with many administrations; and it gives us a 3-year 
trial period to see how it works.
    I believe these changes offer us a good chance to retain 
the usefulness of certification, and so I would thank the 
committee for their kind attention to my proposal.
    [The prepared statement of Senator Grassley follows:]

              PREPARED STATEMENT OF SENATOR CHUCK GRASSLEY

    Mr. Chairman, I want to thank the committee for holding this 
important hearing. Today is the first of March, the annual date for the 
President to submit his findings on international counter drug 
cooperation. This certification process lately has become somewhat 
controversial. Today's hearing, as I understand it, is to examine this 
process and several bills to change it now before the committee.
    Before I discuss my bill, S. 376, and the changes it proposes, I 
want to say a few things about the certification process and the 
controversy that now accompanies it.
    Let me begin by quoting briefly from the original law that created 
the certification process back in the mid 1980s. Chapter 8 of the 
Foreign Assistance Act reads, in part, as follows:

          International narcotics trafficking poses an unparalleled 
        transnational threat in today's world, and its suppression is 
        among the most important foreign policy objectives of the 
        United States.

          Under the Single Convention on Narcotic Drugs, 1961, and 
        under the United Nations Convention against Illicit Trafficking 
        in Narcotic and Psychotropic Substances, parties are required 
        to criminalize certain drug-related activities. . . .

And following from this:

          International narcotics control programs should include, as 
        priority goals, the suppression of illicit manufacture of and 
        trafficking in narcotic . . . drugs, money laundering, and 
        precursor chemical diversion. . . .

          The international community should provide assistance, where 
        appropriate, to those producer and transit countries which 
        require assistance

Because . . .

          Effective international cooperation is necessary to control 
        the illicit cultivation, production and smuggling of, 
        trafficking in, and abuse of narcotic . . . drugs.

    The law empowers the President to conclude international agreements 
to implement these objectives. It then requires a method for 
accountability.
    What the law says, in summary, is that we acknowledge that 
international production and trafficking are bad. That the U.S. and 
other countries have obligations under their own laws and under 
international law to stop production, trafficking, and use. And that it 
is reasonable and responsible to expect this country and others to be 
accountable for those efforts. Even if they don't want to be and don't 
like it.
    There seems to be, however, some dissatisfaction with these 
expectations. We here charges of unfairness. Of unilateral decision 
making. Of living in glass houses. While I understand that some are 
unhappy, I do not think it is time to throw the baby out with the bath 
water.
    I do not believe that the circumstances that led Congress some 14 
years ago to establish this standard have substantially changed. If 
anything production and trafficking are worse. The criminal 
organizations engaged in these activities have grown more powerful and 
bolder. Our obligations to protect and defend the people across this 
country is no less real and demanding. The need for tough responses and 
toughmindedness about those responses remain a call upon our best 
efforts.
    I do not believe that the need for accountability is any less today 
that it has ever been. I am also of the opinion that the U.S.--with 
others if possible, without if necessary--must be a leader in ensuring 
that we and others are taking adequate steps to meet our obligations.
    This is not some esoteric discussion about airy philosophical 
ideas. It involves what we propose to do about something very basic 
that is happening across this land. Drug availability and use are 
causing direct and real harm today.
    In our homes, schoolyards, and neighborhoods. In our hospitals and 
on our streets. Most of the drugs that do this harm come from overseas. 
They are produced and trafficked by major criminal gangs. In some 
cases, those activities are aided and abetted by foreign governments or 
corrupt officials in them.
    This is not something we can or should ignore, overlook, or make 
excuses for. We do not do this in respect to terrorism and state 
support for it, and we should expect no less when it comes to drugs. I 
repeat the words from the law, this is one of our most important 
foreign policy concerns.
    That being said, I do believe that we can make some changes to the 
current certification regime. The changes I propose will retain the 
important accountability aspects while retooling certification to be 
more effective. Our goal should not be to spend time debating the 
certification process. We need to spend our time in doing something 
about the problem it is meant to address.
    I also believe, in part a result of certification, that other 
countries now take the need to deal with drug trafficking more 
seriously. It is important to take that fact into account.
    That is why I offered S. 376 along with Senator DeWine. What it 
does is quite simple. It replaces the current three-tiered 
certification decision making process with one determination. My 
proposal requires a decertification notice only. There is no more 
``Majors List.'' The focus is on international bad actors. This 
parallels what we do with states that support terrorism. By doing this, 
we focus attention on the bad guys. We keep the important 
accountability aspects of the law. We keep the useful reporting 
process. We keep the leverage with bad actors that is one of the most 
useful features of the law. But the change gives us a chance to reduce 
the tensions with some of our friends and allies over the process. It 
gives us some Zantac for the policy heartburn we seem to have had with 
Administrations. And it gives us a three-year trial period to see if it 
works.
    I believe these changes offer us the best chance to keep 
certification and retain its usefulness. I want to thank the committee 
for its time and attention.

    Senator Chafee. I would like to thank the distinguished 
Senator from Iowa and welcome the distinguished Senator from 
Texas.

STATEMENT OF HON. KAY BAILEY HUTCHISON, U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Senator Chafee, Mr. Chairman.
    Let me say that I think it is very encouraging that so many 
members are now really involved and interested in this issue. 
Many of us have worked for several years to try to come up with 
an alternative process that would promote mutual cooperation 
and respect and result, rather than this certification process 
which has not really done the job that we wanted it to do.
    The certification process has the alternative of giving an 
A for cooperation, an F for noncooperation, or an F with a 
waiver like a social promotion. That is not really a good--at 
least it has not been a process that has produced the results 
of significantly lowering the drug trafficking and the number 
of illegal drugs that are coming into our country.
    So I would ask the committee to move forward and keep all 
of the people in mind who have bills introduced. We now have 
four. The legislation that I offer this year has Senators 
Feinstein, Domenici, Kyl, Sessions, Graham and Bingaman. 
Senator Boxer and Senator Gramm, Senator Dodd and his group, 
and Senator Grassley all have very good nuggets. If we can work 
together, this would be enough that we could actually make a 
difference.
    I think we are seeing a new day in Mexico. President Fox 
has taken significant steps to eliminate corruption. He fired 
or transferred 45 of 47 customs inspectors along the U.S.-
Mexico border. In the first month of this year, 150 tractor-
trailer trucks containing contraband were stopped by Mexican 
customs officials. That is in 1 month. Last year for the entire 
year, only 38 tractor-trailers were stopped for contraband.
    So I think President Fox is certainly showing that there is 
a new day in Mexico and I think that we should take this 
opportunity with our partner to see if we can do something that 
would promote mutual cooperation.
    One of the things that I would suggest is a multilateral 
approach, where we develop through our multilateral 
institutions--the Organizations of American States, other 
treaty organizations--systems which insist on accountability 
and cooperation to win the war on drugs. A nation that fails to 
meet acceptable international standards should be subject, not 
to sanctions just from the United States, but from the 
international community.
    These sanctions and the mechanism should be harsh and 
swift. All nations must know that failure to work cooperatively 
in the drug war has consequences.
    So, Mr. Chairman, I would just hope that you would take my 
legislation, the other three pieces of legislation. Let us all 
have a part in the discussion, and I hope you will mark up a 
bill, go to the full Foreign Relations Committee, and let us 
stop certification before we have the same situation next year 
and let us show President Fox and the others that are grappling 
with this problem that there is a different approach, we want 
it to be cooperative, but we want it to have results. I think 
that is all of our goal.
    Thank you very much.
    Senator Chafee. Thank you, Senator, and we will try and 
work together as we go forward on this.
    The distinguished Congressman from New York, welcome.

  STATEMENT OF HON. BENJAMIN A. GILMAN, MEMBER, U.S. HOUSE OF 
                 REPRESENTATIVES FROM NEW YORK

    Mr. Gilman. Thank you, Senator Chafee.
    I want to thank our panelists who are here today, the 
committee members, and we welcome this opportunity of sharing 
some thoughts with you on the annual drug certification 
process. I am pleased to join our panelists, Senator Kay Bailey 
Hutchison, Senator Grassley, and Congressman Reyes, who are 
here sharing their views.
    I am here to participate because I am a Member of Congress 
who strongly supports the current law on the certification, 
among many other Members of Congress. Our annual drug 
certification is a simple process, straightforward, but often 
misunderstood. It simply requires that 30 or so major drug 
producing and major transit nations like Mexico, before they 
receive any direct United States aid and-or support for their 
multilateral loans, must demonstrate that they are fully 
cooperating with us in fighting drugs, which have been 
destroying our communities and particularly our young people 
here at home.
    Historically, I note that this annual drug certification 
approach has been overwhelmingly supported by American 
taxpayers. The U.S. Conference of Mayors under Mayor Daly of 
Chicago, who at the local level can do nothing about the 
international trade that targets our communities, has strongly 
supported this process in the recent past.
    Our Federal Government has the lead responsibility in 
stopping drugs coming from abroad. The local mayors have wisely 
seen the annual drug certification as a key and a powerful tool 
for the Federal Government in its primary role in helping to 
protect their communities and citizens from those drugs which 
originate overseas.
    Surprisingly, a Wall Street Journal poll reported not too 
long ago that 65 percent of the Latin American people also 
favor U.S.-imposed sanctions on countries which do not do 
enough to combat illicit drug production and trafficking. Our 
Hispanic neighbors know that the United States must undertake 
serious steps to address these serious problems of illicit 
drugs.
    Many of us in the Congress who were around when drug 
certification was developed by the Democratic Congress for a 
Republican President in 1986 continue to believe that it is not 
too much to ask for any nation's full cooperation in fighting 
drugs before we provide American taxpayer assistance to that 
nation. Along with the majority of American taxpayers, I think 
many of us see eye to eye on that issue.
    For years here in the Congress before 1986 we all heard 
good words and lofty promises from many of the foreign 
governments about their promised cooperation on the supply side 
in their interdiction efforts, but all we got at that time were 
words until drug certification came along. Only then did the 
major producing and transit nations know that our Nation was 
serious and we were prepared to withhold our aid if need be.
    As Senator Nelson has noted, there is no question that our 
Nation needs to do a great deal more in solving the demand 
problem. We welcome that challenge and we are spending billions 
of dollars on demand reduction here at home and doing our share 
on that front.
    Drug certification has been a valuable tool in our supply 
side arsenal, an equal part of the battle against drugs. As we 
all know who have been in the battle for far too long, we must 
simultaneously reduce both supply and demand and do it at the 
same time. It helps to keep drugs out of our Nation in the 
first place by reducing supply.
    Moreover, as we address demand here at home, we must not 
ignore the impact that an unlimited supply of cheap, pure and 
addictive drugs from abroad has had in creating new, as well as 
sustaining, demand at home. That is precisely what drug 
certification is intended to address. For example, on the 
supply side Colombian-led drug dealers who were providing free 
samples of their heroin to our young people here at home in the 
early nineties helped initiate the current Colombian heroin 
crisis in the Eastern United States, according to our own DEA 
experts.
    Today Colombia is cooperating in eliminating the opium in 
the Andes before it ever arrives on our shorelines. Bolivia, 
Peru, the Dominican Republic, and Thailand are also cooperating 
and making substantial progress at eliminating illicit drugs 
from their nations which previously targeted our Nation.
    We receive that cooperation, not just due to drug 
certification, but as part of it. They began doing more and 
more to cooperate with us in our common struggle when they 
recognized that we were serious in our efforts. Accordingly, I 
am urging our Congress, urging this Senate committee, not to 
unilaterally disarm ourselves by doing away with our annual 
drug certification process.
    This vehicle, which was once described by the Clinton 
administration's Assistant Secretary of State for International 
Narcotics Control, Randy Beers, who is here with us today, and 
I quote him as saying: ``It is a policy tool which is 
controversial, not because it has failed, but because it is 
working.'' That was Randy Beers' statement. Other Clinton 
administration drug-fighting officials have said the same thing 
and I certainly fully agree with them.
    Whether the proposal we are considering, whether those 
proposals that we are considering today are to do away with our 
own certification process and replace it with an OAS 
multilateral evaluation system or suspension of the 
certification process for a number of years, or other proposed 
reforms as some in the Senate have proposed, I urge our 
respective bodies to stay the course, make no change in current 
law. As Senator Grassley has noted today, let us not throw out 
the baby with the bath water.
    The OAS system has no teeth, no sanctions, and its ratings 
are often the lowest common denominator of the performance of 
each nation's individual efforts in fighting drugs.
    The utilization of our annual drug certification tool 
geared to U.S. aid should not be abandoned because it makes 
some of our nearby neighbors and foreign allies uncomfortable 
or embarrassed. The American taxpayer and the people of Latin 
America know better, as was underscored at our recent 
international conference on drugs in Bolivia just last week, 
which I had the opportunity of attending. International 
cooperation in fighting drugs is essential for all of us to 
succeed, and I think all of our constituents recognize that.
    Let me just note that when we were attending an Atlantic 
conference that was organized by former President Carter not 
too long ago the President of Bolivia sat alongside me at that 
meeting and he whispered over to me that without the threat of 
decertification his government would never have enacted the 
laws of asset seizure, money-laundering that they truly needed 
to fight drugs. Today, as we all know, Bolivia is about to 
become free of illicit coca and remove the stigma of 
association with the cocaine business for that country.
    I urge our colleagues, the United States must lead in the 
international fight against illicit drugs that clearly 
threatens not only our national security, but the national 
security of too many other nations. Drug certification has 
provided us with an extremely powerful tool in that struggle. 
We must be prepared to tell it like it is about what other 
nations are doing or not doing to help in our national fight to 
reduce supply in this serious threat from illicit drugs from 
abroad.
    It is essential that we protect our young people and our 
communities by using and leveraging our foreign assistance 
wisely and effectively, and let us make use of every available 
tool in doing that.
    Thank you, Mr. Chairman.
    [The prepared statement of Representative Gilman follows:]

       PREPARED STATEMENT OF REPRESENTATIVE BENJAMIN GILMAN (R-NY)

    Thank you, Senator Helms. I welcome this opportunity for sharing 
our thoughts on our annual drug certification process. I am pleased to 
have been invited to participate in this hearing as one of those of us 
in the United States Congress who strongly and unabashedly supports the 
current law on certification.
    Our annual drug certification is a simple and straightforward 
process, but much misunderstood. It simply requires that those 30 or so 
``major'' drug producing and ``major'' transit nations like Mexico, 
before they receive direct U.S. aid and/or our support for their 
multilateral loans, must demonstrate that they are fully cooperating 
with us in the fighting drugs which are destroying our communities and 
our young people here at home.
    Historically, I note this annual drug certification approach has 
been overwhelmingly supported by our American taxpayers. The U.S. 
Conference of Mayors under Mayor Daley of Chicago, who at the local 
level can do nothing about the international trade that targets their 
communities, has strongly supported this process in the recent past.
    The federal government has the lead responsibility in stopping 
drugs coming from abroad. Our local mayors have wisely seen the annual 
drug certification as a key and powerful tool for the federal 
government in its primary role in helping to protect their communities 
and citizens from those drugs which originate overseas.
    Surprisingly, as a Wall Street Journal poll showed not too long 
ago, 65 percent of the Latin American people also favor U.S. imposed 
sanctions on countries which do not do enough to combat illicit drug 
production or trafficking. Our Hispanic neighbors know the U.S. must 
undertake serious steps to address such a serious problem as illicit 
drugs.
    Many of us in the Congress who were around when drug certification 
was developed by a Democratic Congress for a Republican President in 
1986, continue to believe that it's not too much to ask for any 
nation's full cooperation in fighting drugs before we provide American 
taxpayer assistance to that nation. Along with the American taxpayers, 
we see eye to eye on this front.
    For years here in the Congress, before 1986, we all heard good 
words and lofty promises from foreign governments about their promised 
cooperation with us on the supply side and interdiction efforts. But 
all we got were words until drug certification came along. Only then 
did these major producing and transit nations know that we were serious 
and were prepared to withhold our aid, if need be.
    The United States needs to do even more in solving its demand 
problem, and we welcome that challenge. We are spending billions on 
demand reduction here at home, and doing our share on that front. Drug 
certification is a valuable tool in our supply side arsenal--an equal 
part of the battle against drugs. It helps to keep drugs out of our 
nation in the first place.
    Moreover, as we address demand here at home, we must not ignore the 
impact that an unlimited supply of cheap, pure, and addictive drugs 
from abroad has in helping to create new, as well as sustaining, demand 
at home. That is what drug certification is intended to address.
    For example, on the supply side Colombian-led drug dealers who were 
providing free samples of their heroin to our young people here at home 
in the early 1990's, helped initiate the current Colombia heroin crisis 
in the Eastern United States, according to our own DEA experts.
    Today, Colombia is cooperative in eliminating the opium in the 
Andes before it ever gets here. Bolivia, Peru, Dominican Republic and 
Thailand are also cooperating and making great progress in eliminating 
illicit drugs from their nations which targeted our country. We 
received this cooperation not just because of drug certification, but 
as a part of it. They began doing more and more to cooperate with us in 
our common struggle, when they recognized that we were serious.
    Accordingly, I urge the Congress not to unilaterally disarm 
ourselves by doing away with our annual drug certification process. 
This vehicle was once described by the Clinton Administration's 
Assistant Secretary of State for International Narcotics Control, Rand 
Beers, as ``a policy tool which is controversial, not because it has 
failed, but because it is working.'' Other Clinton Administration drug 
fighting officials have said the same thing. I fully agree with them.
    Whether the proposal is to do away with our own certification 
process and replace it with an OAS multilateral evaluation system or 
suspension of the certification process for a number of years, or other 
reforms, as some in the Senate have proposed, I urge our respective 
bodies to stay the course and make no change in current law. The OAS 
system has no teeth, no sanctions, and its ratings are often the lowest 
common denominator of the performance of each nation's individual 
efforts in fighting drugs.
    The use of our own annual drug certification tool, geared to U.S. 
aid, should not be abandoned because it makes some of our nearby 
neighbors and foreign allies uncomfortable or embarrassed. The American 
taxpayer and the people of Latin American know better. International 
cooperation in fighting drugs is essential for all of us to succeed, 
and our constituents recognize that.
    The United States must lead in the international fight against 
illicit drugs that clearly threatens our national security. Drug 
certification has provided us a powerful tool in that struggle.
    We must be prepared to ``tell it like it is,'' about what other 
nations are doing or not doing to help our country's fight in this 
serious threat from illicit drugs from abroad. It is essential that we 
protect our young people and our communities by using and leveraging 
our foreign assistance wisely and effectively.

    Senator Chafee. Thank you, Congressman Gilman.
    The distinguished Congressman from Texas, welcome.

   STATEMENT OF HON. SILVESTRE REYES, MEMBER, U.S. HOUSE OF 
                   REPRESENTATIVES FROM TEXAS

    Mr. Reyes. Thank you very much, Mr. Chairman. I want to 
thank you and Senator Dodd, as well as members of the 
committee, for inviting me to be here this morning. I am 
honored to be sitting here with three of my distinguished 
colleagues: Senator Kay Bailey Hutchison, Senator Chuck 
Grassley, and Congressman Ben Gilman. I welcome the opportunity 
to be here and testify on the annual drug certification 
process, which I believe has outlived its usefulness and should 
be eliminated or dramatically changed.
    I speak from a unique perspective, one which I believe no 
other Member of Congress has. I am not a career politician. I 
am not an academic who has analyzed data, nor have I consulted 
with scholars or think tanks. I was born, raised, and worked, 
and today continue to live on our Nation's border with Mexico. 
I have firsthand knowledge and experience of our Nation's war 
on drugs, because I spent more than 26\1/2\ years of my life on 
the front line of that war as a Border Patrol agent enforcing 
our Nation's immigration and narcotics laws. For 12 of those 
26\1/2\ years, I was the Border Patrol Sector Chief in McAllen, 
Texas, and El Paso, Texas.
    Mr. Chairman and members of the committee, the most 
important lesson that I learned while working on the border is 
that to be successful in our fight against drug trafficking we 
must help Mexico reform its police apparatus as well as its 
legal and judicial systems. If the United States and Mexico are 
to stop drug smuggling, we must cooperate and work in an 
environment of mutual understanding.
    Because about 60 percent of the cocaine on the streets of 
the United States passes through Mexico, its cooperation is 
vital to any counterdrug effort that we impose. Merely 
criticizing Mexico achieves nothing. The U.S. consumes more 
than $5 billion a year in illegal drugs. We should own up to 
our responsibility and stop trying to blame others.
    Indeed, a recent survey found that 46 percent of Americans 
believe that Americans are indeed responsible for the problem 
of illegal drugs in the United States. However, interestingly 
enough, 50 percent of those same Americans believe that the 
certification process should be made tougher. They believe that 
we as a country are responsible for creating the demand, but we 
need to punish foreign nations for our problem.
    We should not continue to use the certification process as 
a forum to vent frustrations that we as a Nation feel about the 
devastating impact of drugs on our communities and 
neighborhoods. The Mexican Government every year bristles at 
the annual certification process, viewing it as an affront to 
their nation and an infringement on their sovereignty. The 
former Mexican Ambassador to the United States, Jesus Reyes-
Heroles, refers to this certification process as ``the most 
stressful period each year in the relationship between our two 
great nations.''
    This stress does not in my view enhance the cooperation 
essential to defeat this mutual scourge. We must continue to 
build upon the kind of process we have seen in the last few 
years. The United States policy of judging the drug-fighting 
efforts of other countries is counterproductive and must be 
changed if we are to have any real impact on the international 
drug trafficking scenario.
    We must develop a process in which we engage our partners 
through cooperation rather than confrontation. Today I am going 
to introduce legislation modeled after Senator Dodd's bill, 
which suspends the certification process for 2 years. The 
legislation states that ``It is the sense of Congress that the 
President should convene a conference of the heads of state of 
major illicit drug producing countries, major drug transit 
countries, and major money-laundering countries to present and 
review drug reduction and prevention strategies for each of 
those countries.''
    My legislation will ask the President to come up with an 
alternative to the annual certification process by November 1, 
2002.
    Mr. Chairman, today I am encouraged at the direction which 
this debate is heading. It is quite a contrast from the 
ugliness associated with this debate 4 years ago, when 
legislation was introduced to actually decertify Mexico. 
President Bush has indicated that he will review the 
certification process and congressional leaders like my good 
friend Senator Hutchison and Congressman Jim Kolbe have 
introduced bills to suspend or waive the process.
    Last week I and eleven Members of the Congressional 
Hispanic Caucus met with President Fox and members of his 
administration in Mexico City. Among the many issues we 
discussed was the issue of certification. I believe there is a 
real commitment from President Fox and his administration to 
the fight against drug trafficking. Moreover, President Fox 
fully understands the dangers involved in this partnership and 
simply expects from us a commitment to that partnership.
    Finally, Mr. Chairman, I look forward to working with all 
of you to come up with an alternative that is productive rather 
than confrontational, because I believe that the President and 
Congress can come up with a workable solution.
    I want to thank you again for giving me this opportunity to 
testify this morning and I would be pleased to answer any of 
your questions. Thank you.
    [The prepared statement of Representative Reyes follows:]

      PREPARED STATEMENT OF REPRESENTATIVE SILVESTRE REYES (D-TX)

    Thank you Chairman Chafee and Senator Dodd for inviting me to be 
here this morning. I am honored to be sitting here with three of my 
distinguished colleagues, Senator Kay Bailey Hutchison, Senator Chuck 
Grassley, and Congressman Ben Gilman. I welcome the opportunity to be 
here and testify on the annual drug certification process, which I 
believe has outlived its usefulness and should be eliminated.
    I speak from a unique perspective, one which no other Member of 
Congress has. I am not a career politician. I am not an academic who 
has analyzed data, nor have I consulted with scholars or think tanks. I 
live on our nation's border with Mexico. I have first-hand knowledge 
and experience of our nation's ``war on drugs.'' I spent more than 26 
years of my life on the front line of that ``war'' as a Border Patrol 
agent, enforcing our nation's immigration and narcotics laws. For 12 of 
those 26 years, I was the Border Patrol Sector Chief in McAllen, Texas 
and El Paso, Texas.
    The most important lesson I learned while working on the border is 
that to be successful in our fight against drug trafficking, we must 
help Mexico reform its police apparatus as well as its legal and 
judicial systems. If the U.S. and Mexico are to stop drug smuggling, we 
must cooperate and work in an environment of mutual understanding. 
Because about 60% of the cocaine on the streets of the United States 
passes through Mexico, its cooperation is vital to any counterdrug 
effort. Merely criticizing Mexico achieves nothing.
    The U.S. consumes more than $5 billion a year in illegal drugs. We 
should own up to our responsibility and stop trying to blame others. 
Indeed, a recent survey found that 46 percent of Americans believe that 
Americans are responsible for the problem of illegal drugs in the U.S. 
Interestingly enough, 50 percent of those same Americans believe that 
certification should be made tougher. They believe that we as a country 
are responsible for creating the demand but we need to punish foreign 
nations for our problem. We should not continue to use the 
certification process as a forum to vent the frustrations we as a 
nation feel about the devastating impact of drugs on our communities.
    The Mexican government bristles at the annual certification 
process, viewing it as an affront to their nation and an infringement 
on their sovereignty. The former Mexican Ambassador to the United 
States, Jesus Reyes-Heroles, refers to the certification process as 
``the most stressful period each year in the relationship between the 
two nations.'' This stress does not, in my view, enhance the 
cooperation essential to defeat this mutual scourge.
    We must continue to build upon the kind of progress we have seen in 
the past few years. The United States policy of judging the drug-
fighting efforts of other countries is counterproductive and must be 
changed if we are to have any real impact on international drug 
trafficking. We must develop a process in which we engage our partners 
through cooperation rather than confrontation.
    Today, I am going to introduce legislation modeled after Senator 
Dodd's bill, which suspends the certification process for two years. 
The legislation states that it is the sense of Congress that the 
President should convene a conference of the heads of state of major 
illicit drug producing countries, major drug transit countries, and 
major money laundering countries to present and review drug reduction 
and prevention strategies for each country. My legislation will also 
ask the President to come up with an alternative to the annual drug 
certification process by November 1, 2002.
    I am encouraged at the direction this debate is heading. It is 
quite a contrast from the ugliness associated with this debate four 
years ago, when legislation was introduced to decertify Mexico. 
President Bush has indicated that he will review the certification 
process, and Republican leaders, like Senator Hutchison and Congressman 
Jim Kolbe, have introduced bills to suspend or waive the process.
    I look forward to working with all of you to come up with an 
alternative that is productive rather than confrontational. I believe 
that the President and the Congress can come up with a workable 
solution. Thank you again for asking me to testify this morning and I 
will be happy to answer any questions you may have.

    Senator Chafee. Thank you, Congressman Reyes. You have got 
what they say in the Army, boots on the ground time.
    Mr. Reyes. Yes, I do.
    Senator Chafee. Senator Biden.
    Senator Biden. Mr. Chairman, I appreciate the time. I am 
going to ask unanimous consent my opening statement be placed 
in the record, if I may, and summarize it very, very briefly.
    I, like Chairman Gilman, was here, as a matter of fact was 
a co-author of this legislation that we are talking about 
changing. I just want to set the record straight on a few 
things. No. 1, at the time we introduced the legislation we got 
zero cooperation from any head of state. The Mexican head of 
state would not even talk to us. The Colombian head of state 
would not talk to us. No one would discuss this issue with us. 
It was considered our problem.
    The truth is it is demand-driven. But I find it kind of 
fascinating. If you apply the logic of suggesting that because 
it is demand-driven we should not hold those who are supplying 
and those who accommodate it as accountable, then we might as 
well decide that organized crime that is spawned in the United 
States of America, that is involved in the drug trafficking, 
should not be held responsible; it is a demand problem.
    I do not find it a demand problem when in my State of 
Delaware Colombian heroin now which is 94, 95 percent pure, is 
given out for free by organizations that go through and are 
coordinated out of Colombia and out of Mexico and given free to 
high school kids. Now it is a demand problem.
    This is a disease of the brain. Once in fact you get hooked 
on drugs, it is a disease of the brain. It is not something you 
are able to control. So when an organization comes along and 
concludes that they are going to give out free samples to kids 
who are below the age of being able to make judgments about 
whether or not they should go out on a date or not and then 
says, well, this is a demand problem, it is our problem, and we 
are not going to hold any other nation accountable, I think 
that is garbage. I think that is absolute garbage.
    I would point out a second thing, that once we did this, 
once we did this, it has caused serious problems, but now we 
actually have cooperation. Mexico would not even talk to us in 
1978, in 1981, in 1983, would not even talk to us about the 
corruption of their system and what was going on, would not 
even discuss it with us. I got all these lectures about how 
this is only our problem, it is a gringo problem, nobody 
else's.
    Since this has been put into place, it has worked in fits 
and starts. I am prepared to change it, unlike the chairman. I 
am prepared to sign on to Senator Dodd's bill. But I do not 
like this revisionist history about how none of this made any 
sense at the time we did it in the context in which we did it. 
I strongly take issue with that.
    The third point that I would make is that it is time to 
give these leaders a chance. Guess what, we now have someone in 
Mexico who is serious, not a corrupt leader, not a corrupt head 
of state, which we often dealt with the previous 20 years.
    So this is a different world. Fox is serious, putting his 
life on the line, as is, I might add, Pastrana putting his life 
on the line. So now we have people who are serious about it, 
and I am willing for one to say: Now you are serious, you have 
been serious, now your elected leaders are taking real chances. 
Pastrana has taken more chances in Colombia, literally putting 
his life on the line to clean up everyone from the police 
department to their military and going after the paramilitary. 
He deserves a break, in my view. Fox deserves to have a 
breather here.
    So I am prepared to lift this for 2 years because it is not 
working now. I admit it is now counterproductive. But I 
respectfully suggest, everybody go back and remember, remember 
what kind of responses we got from Mexico when you, Congressman 
Reyes, were on the line there, doing a job I would not take on 
a bet. God bless you. As my mother would say, no purgatory for 
you, straight to heaven, nothing in between.
    So I do not want us to get into this thing where somehow 
this is merely, merely a consequence of an avaricious drug 
market here that is born by the lack of discipline on the part 
of the American people and the unwillingness of the American 
Government to do anything about it, et cetera. This is an 
economy, a drug economy, that has in fact a relatively small 
group of people who are inclined to seek it, but has an 
incredibly sophisticated marketing apparatus.
    We sit here and say we do not want the cigarette companies 
to put Joe Camel on a pack. Well, go look, as you well know 
better than I do, Congressman, look at the way they package 
everything from LSD these days all the way to heroin. They even 
have their own colors. This is packaging.
    So to suggest that people do not do anything about those 
who are packaging and aiming at our kids is to me--and I am not 
saying you suggested that--to me absolutely makes no sense. If 
you apply that logic, criminal organizations here who are 
totally home-grown--by the way, more marijuana comes out of 
California than any other part of the world. That would be like 
saying, OK, here is what we do, those organizations 
distributing that, you know, let us not focus on them, let us 
focus on the kids what are using it and get them.
    By the way, the last point I will make and I will stop: I 
have every single year since the drug czar legislation was 
written issued a lengthy report, and a study on drugs in 
America. Every single one of those years I have pushed for more 
and more support for dealing with the demand side.
    It is true, the criticism I think is absolutely true, until 
recently we have as a Congress been unwilling to pay serious 
attention, and I say recently, the last 4 or 5 years, pay 
attention to the demand side. It is the place we should be 
expending a great deal more of our money. The reason I am 
prepared to spend less money on interdiction is because it does 
not work very well, not because it is immoral to attempt to do 
it, not because we are offending other nations not because of 
anything else, but because you do not get the biggest bang for 
the buck.
    So again I will conclude by saying, I make no apologies for 
having coauthored this and written this in the first instance. 
I think it did have an effect. It has had an effect. It has had 
some negative effects, but by and large it has been much more 
positive than it has been negative. I respectfully suggest we 
would not be here unless we embarrassed other nations, as they 
view it, by focusing on this.
    I remember meeting with the President of Colombia in 1978, 
I believe it was, and saying: You will change your mind when 
one thing happens, when you become drug addicted. You cannot be 
a grower and a transit place without your own country getting 
addicted. Guess what is happening in Mexico now. Guess what is 
happening in Mexico now. So now Mexico is a lot more focused 
than it was before, not only because it has a decent leader, 
not only because it has a leader who I think is committed to 
this, but also because, guess what, they have got themselves a 
demand problem, and it is growing.
    So I am prepared to join Senator Dodd and the Congressman 
in his bill to call for that waiver, because the single most 
important part of this--and I will cease and desist; it would 
have been easier if I had read my statement. It would have been 
shorter, but, as you can tell, I feel kind of strongly about 
this. I have been doing this for 20 years with as much energy 
as anybody who has ever worked in this place, and I am 
frustrated.
    The thing that Senator Dodd is proposing and you are 
proposing, Congressman, is the key. That is the call for the 
nations involved in this to get together and try to come up 
with a genuinely serious approach, because I respectfully 
suggest Chairman Gilman is generally correct about the 
Organization of American States and what they have done so far. 
So I think this gives us a chance. We will find out who is 
serious. We will find out who is not. I think the two leaders 
in Colombia and in Mexico warrant this opportunity, and I am 
willing to sign onto it.
    But I do not accept the notion that this was a bad idea at 
the outset.
    [The prepared statement of Senator Biden follows:]

           PREPARED STATEMENT OF SENATOR JOSEPH R. BIDEN, JR.

    Mr. Chairman, 15 years ago, I joined several other colleagues in 
co-authoring the law to require the annual certification of counter-
narcotics performance by foreign nations.
    For my part, enactment of the law was necessary to send a wake-up 
call. It was necessary, in my view, to push the major drug producing 
and transiting countries to take our concerns about the drug issue 
seriously. It was also necessary to force Congress and the Executive 
Branch to review, on a systematic basis, the counter-drug performance 
of our allies and our adversaries.
    I still believe it is reasonable for the United States to require 
aid recipients to cooperate on narcotics control. I still believe that 
there is a value to forcing the Executive Branch and Congress to review 
the state of international cooperation on an annual basis.
    I still believe, finally, that certification is a useful--if 
imperfect--diplomatic tool. Even the State Department, which prefers to 
confront foreign nations privately rather than publicly, conceded in 
last year's international narcotics report that ``though controversial, 
throughout the 14 years it has been in effect the certification process 
has proved to be a powerful policy instrument . . . [a]s uncomfortable 
as it may be for all concerned, it is a healthy process.''
    All that said, I have an open mind about alternative proposals. And 
I'm willing to take a time out, as Senator Dodd's bill would provide, 
as we search for those alternatives.
    The Dodd bill does not get rid of certification entirely--it 
permits the President to keep the certification process for certain 
countries if he believes it is useful to do so. If the Dodd bill 
becomes law, the burden would still be on Senator Dodd to pass a bill 
for permanent repeal.
    The main reason I am willing to suspend the process is that one 
major rationale for it--to prod major narcotics producing natons to 
take action--seems unnecessary at this time. The two most significant 
nations from which drug trafficking to this country occurs--Colombia 
and Mexico--have presidents who are clearly committed to working 
closely with us to address the drug problem.
    Two other countries in the hemisphere which had been major 
producers of coca--Bolivia and Peru--have also made significant strides 
in reducing drug cultivation.
    Suspension of certification does not mean that we are going to stop 
paying attention to the actions of foreign nations in combating 
narcotics cultivation and trafficking. Under the Dodd bill, the State 
Department will continue to issue its annual report on narcotics. 
Congress will continue to monitor the situation closely.
    Also, the Organization of American States has begun work on a 
multilateral mechanism in which nations of this hemisphere will jointly 
assess each country's record. The process will be showcased for the 
first time at the Summit of the Americas in April.
    Though it is too soon to assess the effectiveness of this 
mechanism, I believe it holds some promise in fostering greater 
cooperation among the nations of the region.
    In closing, I welcome this debate. I commend Senator Dodd for 
starting it, and I thank you, Mr. Chairman, for convening this hearing 
today.

    Senator Boxer. Mr. Chairman, I wonder if I could say 
something here, because California was mentioned.
    Senator Biden. I did not mean----
    Senator Boxer. No. California was mentioned, and I think it 
should be mentioned when I talk about this because it is our 
kids that are suffering probably more than anybody else because 
of where we are. But I want to make a point. I agree with my 
friend, if we did not do this certification and hold the threat 
of decertification we perhaps would have no progress whatsoever 
and, we were talking before, we have made a little.
    The point is, I think the Dodd bill goes too far. The bill 
that Senator Gramm and I have keeps the certification system in 
place if a country will not sign a bilateral agreement with us 
and make measurable progress. So I think my colleague ought to 
take a look at that one, because I think it is a little 
tougher. We do not do away with certification, because I do 
agree. No one could have said it better than you did.
    You know, it is like your kids. In my case, they are quite 
grown now, but when they were little they complained, 
complained, and complained about pointing out the error of 
their ways, but in the end it was a good thing. Here is the 
point about this. This is about equals, not kids. But we need 
to work together, because we have got the demand problem and 
they have got the supply problem and now, as Senator Biden 
points out, they are starting to get the demand problem.
    We are equals. We have to work together. That is why we 
offer this bilateral agreement.
    I just want to put a couple of facts on the record. Today 
three million drug users are in need of treatment now, but they 
cannot get it because they do not have money to pay for it and 
we do not have it. Some 2.1 million are receiving treatment. 
Now, there is nothing worse than someone finally deciding to 
kick a habit and going to the county health department or 
wherever they have to go and being told, come back in 3 months, 
you are on a waiting list. By then, God knows what could 
happen, what crimes could be committed.
    Senator Biden. Ninety more crimes.
    Senator Boxer. And they lose the desire to kick the habit 
or they may die. We do not know. So the fact of the matter is, 
as Senator Biden has said, we need to do more. That does not 
mean that you do not blame the people who are pushing the 
stuff. It all has to happen. We need a balanced plan. It is 
what Senator Nelson said before, Senator Biden, you arrived at 
the hearing. He made the point about looking at everything.
    Congressional Research Service says that reduction of 
supply accounts for 66 percent of the Federal anti-drug control 
budget, 66 percent. So we really do not have a balance and we 
need to do more on all ends. But I am really glad we are having 
this hearing because there is a lot more than meets the eye to 
all of this. I think Senator Biden put this all into 
perspective. Certification has its problems, but it caught 
everybody's attention. We now have to make some changes in it, 
but let us not, in my opinion, throw the baby out with the bath 
water. I agree with the Honorable Ben Gilman on that point.
    I hope we can come up with some compromise that keeps some 
vestiges of the certification and still takes a little from all 
of our bills on the rest.
    Mr. Gilman. Mr. Chairman.
    Senator Chafee. Thank you, Senator Boxer.
    Yes, Congressman Gilman.
    Mr. Gilman. I might just ask for a few more minutes. I have 
to return to a hearing we are conducting in our House 
International Relations Committee.
    Senator Chafee. We appreciate your patience, yes.
    Mr. Gilman. I want to thank the gentlelady, Senator Boxer, 
for the comments she made. I want to commend Senator Biden for 
his outstanding service over the years in fighting the drug war 
and Senator Boxer for what she is doing in California.
    We struggled to get the drug certification measure adopted. 
Senator Biden led that effort in 1986. It was a Democratic 
Congress and a Republican President, as I noted before.
    Senator Dodd. A Republican Senate, too, by the way.
    Mr. Gilman. Yes, a Republican Senate.
    But it was a worthy effort because it accomplished a great 
deal. How well we remember how important it was then to make 
the countries who were not listening to us turn around and 
start working with us. I think that should be enough of a 
lesson to us, that countries who did not want to cooperate 
started cooperating because we withheld aid.
    Why should we be paying taxes and giving tax money to 
countries that are not cooperating with this serious problem? I 
urge my colleagues, give that a great deal of consideration. 
For the 30 years that I have been involved in fighting the drug 
war, we find there are five essential elements, five 
battlefields, and we have got to reduce supply and demand 
simultaneously.
    We do that by starting with the drug producing nations. 
They have to eradicate, they have to provide alternative crops. 
Then when it gets into the supply routes, we have to interdict 
and we have to provide intelligence to help in interdiction. 
Then when it reaches our shorelines, to make certain that our 
enforcement officials have the wherewithal to do the job to put 
the drug traffickers behind bars. Then on the demand side, 
educate our young people by all means to prevent the 
utilization of narcotics, teach them how deadly these illicit 
drugs are, that they are not recreational, and then to treat 
and rehabilitate.
    Eradicate, interdict, enforce, and then reduce demand by 
education, prevention, and treat and rehabilitate. This 
certification tool is an important tool in all of that, because 
we are telling the drug producing nations, we are asking them: 
Cooperate with us, but if you do not cooperate then we are not 
going to give you any Federal assistance. Is that too much to 
ask? I think that is something that all of our taxpayers would 
like to see us do.
    I thank you for this opportunity, and I want to thank our 
colleagues on the committee for focusing attention on this very 
important issue. Thank you, Mr. Chairman.
    Senator Chafee. Thank you, Congressman.
    Mr. Reyes. Mr. Chairman, if I could make a couple comments. 
Senator, did you have something?
    Senator Hutchison. Do you all have votes going?
    Mr. Reyes. I have got a vote, and I just wanted to make a 
couple of comments particularly about Senator Biden's comments. 
The first one is I think it is a mistake if we do not look at 
the issue of drug trafficking and the drug problem and fighting 
it on three different levels. We have got to fight it on the 
interdiction level, the education level, and the treatment 
level.
    Any one of those components that you slight, you are 
slipping away from a balanced approach to fighting it. As the 
Senator was talking there about his frustration and perhaps a 
frustration shared by others here this morning in terms of what 
brought about the certification process and the fact that he 
referred repeatedly to Mexico would not talk, I was thinking 
about the many times that I as a chief received cooperation at 
the local operational level from many fine and outstanding 
Mexican colleagues that were on the front line of fighting 
drugs, that were making those kinds of sacrifices.
    The sacrifices that I am talking about are, purely stated, 
getting killed, getting killed because they would not succumb 
to corruption, because they would not look the other way. You 
know, one of the things that I think we should keep in 
perspective is the terrible price that Mexico has paid as a 
country while engaging in this fight with us against drug 
trafficking. You know, we have seen a man of the church gunned 
down in Guadalajara. We have seen repeatedly prosecutors that 
are either killed outright or disappear. We have seen police 
officials that get killed, their families intimidated, families 
get killed.
    I am speaking from my own personal experience from being on 
the border and fighting. So I think it is useful to have a 
process that puts us all in the mix, because just to simply 
point fingers and just to simply manifest our frustration 
directed at a single country or a single portion of the problem 
does us no good. I think we have to have a balanced approach. I 
think we have to have the wisdom to know that we are all in 
this together.
    The certification process was well intended and has brought 
about a lot of the benefits that people have spoken about. But 
it is time to modify it. It is time to use it for something 
other than just a bully pulpit to just bash a segment or a 
country or a frustration that we feel. That is what I am 
saying.
    I think the true wisdom in this is to understand that we 
are in it together, to understand that in order for it to 
continue to be successful we have to modify it. Third and I 
think most important of all is to understand that we must be 
flexible from a public policy. I was saying--I do not know if 
you were in here, Senator, when I said it--but you know, there 
are two arenas that we need to understand we are engaged in. 
There is a political arena, which is the one that produced the 
frustration that you articulated so well a few minutes ago; and 
then there is the operational arena. That operational arena is 
where I think we sometimes lose sight of not just the 
commitment individually that Mexican law enforcement and 
prosecutors and others make to the effort, but that also we 
have to be mindful that we need to continue to fund and 
support.
    So again I appreciate that opportunity. I think the 
perspective that I bring is one of 26\1/2\ years of being 
there. So I will be glad to discuss any of these experiences 
with you in the hopes that we can have a public policy that 
works for all of us. That is the most important thing, because 
today we are frustrated because of the scourge of drugs and the 
impact that they are having on all our neighborhoods, Mexico 
included and Latin America included as well.
    So thank you again for the opportunity.
    Senator Chafee. Thank you.
    Congressman, Senator, anything to add? Are you preparing to 
leave?.
    Senator Hutchison. Yes, unless there were any questions I 
was going to leave.
    Senator Dodd. No, just to say, I mentioned earlier before 
you came in, Kay, that Senator Hutchison and I have worked 
together closely on this issue for the last few years, and she 
cares about it very, very much and brings, obviously, a 
tremendous experience with a border state like Texas, not 
unlike Congressman Reyes, who deals with this issue in a very 
direct way all the time.
    I am hopeful in the next few weeks here we will be able to 
develop a piece of legislation that everyone can feel very 
comfortable with. I do not want to take up the time. We have 
got other witnesses to come and the Senator has to move on. 
Obviously, one of the problems is in a sense that today is 
March 1, is the certification day, so we will have to slip, I 
guess, on the proposal you have made because of the 1-year. We 
are already into the year, so we would have to modify, I guess, 
the dates on that, which you may want to comment on.
    Second, just to make note of the fact that I am for the 
suspension. Obviously, we keep in place--I do not want to get 
into a debate here, but we keep in place the President's right 
to decertify, in a sense to make notice of where we are getting 
cooperation and where we are not. So it does not eliminate the 
entire process. It merely eliminates the congressional process 
for 2 years. We can still have the President, President Bush, 
make determinations about the cooperation we are receiving with 
any number of nations that are involved in the business of 
narcotrafficking.
    My concern would be now, and this would be the challenge, 
that this 2-year suspension is designed to generate some real 
effort. We can do so much up here, but the administration has 
really got to take this up now. If it is merely just buying 
some time so we do not have an embarrassing foreign policy 
debate for 2 years and then ask for an extension for another 
year and one after that, this will have been nothing more than 
just an interim period and we will be right back where we were 
before.
    So I know your close ties and I know some of them are here 
in the audience, so, taking advantage of your presence, and 
maybe you would like to comment on that, whether it is the 1-
year that you have recommended or the 2 years that we have 
recommended. I suspect we both agree that that period of time, 
whatever it is, better be used very effectively if we are going 
to come up with an alternative that means something.
    Senator Hutchison. I agree with you. I would be very 
disappointed if we do not have something in concrete that is 
different and workable at this time next year. So I believe 
that your 2 years was not meant to be a full 2-year moratorium, 
but rather to give us the time to do something that would be 
workable.
    Senator Dodd. One Congress, yes.
    Senator Hutchison. So in my legislation it requires the 
President to have a plan in place by June 30 and report to 
Congress with that plan. I would like to see us have a 
multinational approach rather than a binational approach with 
our other country neighbors and friends.
    Senator Dodd. I agree.
    Senator Hutchison. So I would just like to ask the chairman 
of the subcommittee to consider calling a kind of a working 
meeting with those who want to participate, and I would say 
looking at the sponsors of each of our bills, and let us talk 
about what we would really like to propose. I would like to 
move legislation right away and have something that can go to 
the President and bring the White House into our working 
meeting and see what they would propose as well. Let us hammer 
something out and do it this year and send it to the President, 
so that we have a process in place that we think will be more 
workable, rather than, as we have in the last 4 years, as 
Senator Dodd knows, come to the deadline, not liked the 
alternatives, tried to forge a consensus, and we have not been 
able to, so we wait another year. That is not acceptable today.
    Senator Dodd. Thank you.
    Senator Hutchison. Thank you.
    Senator Chafee. Thank you, Senator.
    I guess we have had some good ideas put forth here, and 
some divergence of opinions. I think that it is a good 
suggestion to have a working meeting and get together. We 
appreciate that suggestion. Thank you for your time and 
patience.
    Now I would like to welcome the Honorable Rand Beers, 
Assistant Secretary for International Narcotics and Law 
Enforcement Affairs of the State Department. Good morning.

 STATEMENT OF HON. R. RAND BEERS, ASSISTANT SECRETARY OF STATE 
FOR INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Beers. Mr. Chairman, thank you. Senator Dodd, Senator 
Biden, thank you for the opportunity to discuss the narcotics 
certification mechanism and the President's certification 
decisions for this year with the committee. As has been 
indicated before, we are focused here on certification, which 
is a supply side issue, and that is appropriate, but I also 
would like to take note, in light of several Senators' 
comments, that this administration, as indicated by both 
Secretary Powell and President Bush and others, fully supports 
the efforts to reduce demand within the United States, and this 
discussion should not take away from the importance of that 
purpose and the need to move forward and to do a better job in 
that regard as well.
    Certification is a straightforward procedure. Every year 
the President must certify that governments of the major drug 
producing and transit countries have cooperated with the United 
States or have taken adequate steps on their own to meet the 
goals and objectives of the international standard that most 
countries signed onto, the 1988 U.N. Drug Convention.
    If the President does not certify a government, it is 
ineligible for most forms of U.S. assistance, with the 
exception of humanitarian and counternarcotics aid. The United 
States is also obliged to vote no to any assistance loans in 
the multilateral development banks for countries that are 
denied certification.
    Most governments are now aware that U.S. law requires the 
President to provide this annual assessment of counternarcotics 
cooperation. Many resent what they describe as a unilateral and 
subjective assessment of their performance with no reciprocal 
accountability from the United States. I would point out, 
however, that each determination is the product of a year-long 
consultative process. We have worked with our partners to 
establish realistic mutually acceptable goals for certification 
evaluation purposes based on the goals and objectives of the 
United Nations convention.
    The relevant benchmarks are established by mutual consensus 
and the factual basis for any judgment is clearly set forth in 
the certification determinations. Though certification 
throughout its 15-year existence has proven to be an effective, 
if blunt, policy instrument for enhancing counternarcotics 
cooperation.
    Prior to the March 1 deadline for certification each year, 
we have seen countries introducing legislation, passing laws, 
eradicating drug crops, and capturing elusive drug kingpins. 
The timing is no coincidence. These countries know that their 
actions will have an impact on the President's certification 
decisions. They also know what the U.S. expects from them.
    Over the past several years, we have made the 
administration of the certification process more transparent. 
As I indicated, each spring after the decisions are announced 
our embassies give a formal demarche to each country explaining 
the prior year's decision and working with those countries to 
set benchmarks for the coming years. The benchmarks become the 
standards by which the country is reviewed in the following 
year's process.
    Throughout the year, the embassy goes back to the 
governments to discuss progress and barriers in meeting the 
benchmarks, supplemented by high level U.S. Government visits. 
When the President finally makes these decisions on the 1st of 
March, there would be no government taken by surprise.
    That said, we are aware that there is a growing sense among 
some in Congress that there may now be more effective 
approaches to strengthening international drug cooperation. 
Several different bills recently have been introduced in the 
Senate that would change the certification process in some way. 
While I have long supported certification and believe that it 
is a useful tool, we should not hesitate to investigate other 
ways to encourage cooperation on counternarcotics.
    Recent years have seen a dramatic shift toward greater 
cooperation in this area and certification or any alternative 
should reflect the evolving international environment in an 
effort to strengthen that cooperation. One of the most 
encouraging developments is the multilateral evaluation 
mechanism, or MEM, a peer review system for assessing 
individual and collective performance mandated by the 1997 
Summit of the Americas. Developed by the Inter-American Drug 
Abuse Control Commission and the Organization of American 
States, the MEM involves an intensive review by a group of 
independent experts of information submitted by the 34 OAS 
member states about their anti-drug efforts.
    The MEM process provides a consensual framework for a frank 
exchange of views and an evaluation and recommended remedial 
action. While the process is still evolving, the MEM seeks to 
cover national and regional compliance with international norms 
and treaty obligations. This parallels the goals and standards 
of the U.S. certification process and could potentially make 
our unilateral process an anachronism in the Western 
Hemisphere.
    We in the administration are reviewing the legislation 
recently introduced in the Senate that would revise the 
certification process in some way. We believe that it is 
appropriate to consider how the current process might be 
altered to reflect the changes in the international situation 
that have occurred since narcotics certification was first 
introduced.
    That said, any regime that might modify or replace 
certification should have an enforcement mechanism to ensure 
continued international cooperation. Moreover, if there were 
efforts to suspend the certification process we believe the 
President must retain in the interim the power to decertify or 
sanction individual countries using the standards of the 
current process. We do not believe that there should be 
exemptions for individual countries or regions at this time. 
Future carve outs, however, may be appropriate for regions 
where there is a mutually acceptable and credible mutual 
evaluation process in place and working.
    I know that all of us, both in the administration and in 
Congress, are interested in developing the best and most 
effective mechanisms to counter the threat of international 
narcotics trafficking, whether that be through the 
certification process or some other procedure, and I look 
forward to working with all of you to that end.
    Now, as required by law, on the 1st of March and determined 
by the President of the United States, I have the following 
announcement to make. The following countries that were 
identified on the 1st of November of last year have been 
certified: Bahamas, Bolivia, Brazil, China, Colombia, the 
Dominican Republic, Ecuador, Guatemala, India, Jamaica, Laos, 
Mexico, Nigeria, Pakistan, Panama, Paraguay, Peru, Thailand, 
Venezuela, and Vietnam.
    The following two countries, Cambodia and Haiti, were 
decertified with a national interest waiver; and the following 
two countries, Afghanistan and Burma, were decertified.
    Sir, that concludes my testimony. I would be happy to 
answer any questions.
    [The prepared statement of Mr. Beers follows:]

                PREPARED STATEMENT OF HON. R. RAND BEERS

                     COUNTERNARCOTICS CERTIFICATION

    Mr. Chairman, I appreciate this opportunity to discuss the 
narcotics certification mechanism and the President's certification 
decisions for this year with the Western Hemisphere, Peace Corps, and 
Narcotics Subcommittee of the Senate Foreign Relations Committee. 
Certification is a straightforward procedure. Every year the President 
must certify that the governments of the major drug producing and 
transit countries have cooperated with the U.S.--or have taken adequate 
steps on their own--to meet the goals and objectives of an 
international standard that most countries have signed onto, the 1988 
UN Drug Convention. If the President does not certify a government, it 
is ineligible for most forms of U.S. assistance, with the exception of 
humanitarian and anti-drug aid. The U.S. is also obliged to vote ``no'' 
to any assistance loans in the multilateral development banks for 
countries denied certification.

                               BACKGROUND

    The certification process is a statutory requirement. In 1986, the 
Congress--frustrated by what it perceived at the time as reluctance on 
the part of the State Department to take effective measures against the 
governments of drug source and transit countries--introduced the drug 
certification process. It requires the executive branch to identify the 
major drug producing and transit countries and impose sanctions on 
those that do not cooperate with us--or take adequate steps on their 
own--in meeting international drug control goals. The law provides a 
waiver for those countries which, because of their vital interest to 
the United States, should be exempted from the sanctions related to a 
denial of certification.
    Most governments are now aware that U.S. law requires the President 
to provide this annual assessment of counternarcotics cooperation. Many 
governments resent what they describe as a unilateral, subjective 
assessment of their performance, with no reciprocal accountability from 
the United States. I would point out, however, that each determination 
is the product of a year-long consultative process. We work with our 
partners to establish realistic, mutually acceptable goals for 
certification evaluation purposes, based on the goals and objectives of 
the UN Convention. The relevant benchmarks are established by mutual 
consensus and the factual basis for any judgment is clearly set forth 
in the certification determinations.
    Though controversial, throughout its 15-year existence the 
certification process has proved to be an effective, if blunt, policy 
instrument for enhancing counternarcotics cooperation. Prior to the 
March 1 deadline for certification each year, we have seen countries 
introducing legislation, passing laws, eradicating drug crops, and 
capturing elusive drug kingpins. The timing is no coincidence. These 
countries know that their actions will have an impact on the 
President's certification decisions. They also know what the U.S. 
expects from them.
    Over the past several years, we have made the administration of the 
certification process more transparent. Each spring after the decisions 
are announced, our embassies give a formal demarche to each country, 
explaining the prior year's decision and setting benchmarks for the 
coming year. The benchmarks become the standard by which the country is 
reviewed in the following year's process. Throughout the year, the 
embassy goes back to the government to discuss progress and barriers in 
meeting the benchmarks, supplemented by high-level USG visits. When the 
President finally makes his decisions on March 1, there should be no 
government taken by surprise.
    That said, we are aware that there is a growing sense among some in 
Congress that there may now be more effective approaches to 
strengthening international counterdrug cooperation. Three different 
bills have recently been introduced in the Senate that would change the 
certification process in some way. While I have long supported 
certification and believe that it has been a useful tool, we should not 
hesitate to investigate other ways to encourage cooperation on 
counternarcotics. Recent years have seen a dramatic shift towards 
greater international cooperation in this area, and certification, or 
any alternative, should reflect the evolving international environment 
in an effort to strengthen that cooperation.

                   MULTILATERAL EVALUATION MECHANISM

    Over the past decade the international community has intensified 
its collective efforts to counter illegal narcotics production, 
trafficking, and abuse, moving away from finger-pointing and toward 
greater emphasis on shared responsibility. One of the most encouraging 
developments is the Multilateral Evaluation Mechanism or ``MEM,'' a 
peer review system for assessing individual and collective performance, 
mandated by the 1997 Summit of the Americas. The MEM was developed by 
the Inter-American Drug Abuse Control Commission (CICAD) of the 
Organization of American States (OAS).
    The MEM involves an intensive review by a group of independent 
experts of information submitted by the 34 OAS Member States in a 
detailed questionnaire breaking down the components of their anti-drug 
efforts: their policies, strategies, and programs. The experts' 
findings were reviewed and approved at a Special Session of CICAD in 
December 2000 and the OAS formally released this first, baseline report 
on February 2. Having participated in the CICAD Special Session, I was 
struck by the frankness and openness of the discussions about national 
policies and programs that were prompted by these objective preliminary 
evaluations. With the baseline study completed, the second phase of 
evaluation will include follow-up on the initial recommendations as 
well as the addition of other, more qualitative, indicators that will 
probe more deeply into performance.
    The MEM process provides a consensual framework for such frank 
exchanges of views, as well as critical evaluation and recommended 
remedial action. While the process is still evolving, the MEM seeks to 
cover national and regional compliance with international norms and 
treaty obligations. This parallels the goals and standards of the U.S. 
certification process and could, potentially, make our unilateral 
process an anachronism in the Western Hemisphere. The proof will, of 
course, be in the actions governments take to address the gaps or 
weaknesses in their anti-drug efforts that have been identified by the 
MEM. We believe, however, that most governments will be more responsive 
to constructive criticism offered by a community of nations after an 
objective and collaborative process, than to requirements imposed by a 
subjective, unilateral process accompanied by the threat of sanctions 
for non-compliance.

                          PENDING LEGISLATION

    We in the Administration are reviewing the legislation recently 
introduced in the Senate that would revise the certification process in 
some way. We believe that it is appropriate to consider how the current 
process might be altered to better reflect the changes in the 
international situation that have occurred since narcotics 
certification was first introduced. Any regime that might modify or 
replace certification should have an enforcement mechanism to ensure 
continued international counternarcotics cooperation. If there were 
efforts to suspend the certification procedure, we believe the 
President must retain in the interim the power to decertify or sanction 
individual countries using the standards of the current process.
    We do not believe that there should be exemptions for individual 
countries or regions at this time. Future carve-outs may be 
appropriate, however, for regions where there is a mutually acceptable 
and credible multilateral evaluative mechanism in place.

                    CERTIFICATION DECISIONS FOR 2001

    (See attached Decision Memo below.)

                                SUMMARY

    I know that all of us--both in the Administration and in the 
Congress--are interested in developing the best and most effective 
mechanisms to counter the threat of international narcotics 
trafficking--whether that be through the certification process or some 
other procedure--and I look forward to working with you to that end.

                            THE WHITE HOUSE

                               WASHINGTON
                             MARCH 1, 2001

                                 Presidential Determination
                                                No. 2001-12

Memorandum for the Secretary of State

Subject: Certification for Major Illicit Drug Producing and Drug 
    Transit Countries

    By virtue of the authority vested in me by section 490(b)(1)(A) of 
the Foreign Assistance Act of 1961, as amended (the ``Act''), I hereby 
determine and certify that the following major illicit drug producing 
and/or major illicit drug transit countries have cooperated fully with 
the United States, or have taken adequate steps on their own, to 
achieve full compliance with the goals and objectives of the 1988 
United Nations Convention Against Illicit Traffic in Narcotic Drugs and 
Psychotropic Substances:

          The Bahamas, Bolivia, Brazil, People's Republic of China, 
        Colombia, Dominican Republic, Ecuador, Guatemala, India, 
        Jamaica, Laos, Mexico, Nigeria, Pakistan, Panama, Paraguay, 
        Peru, Thailand, Venezuela, and Vietnam.

    By virtue of the authority vested in me by section 490(b)(1)(B) of 
the Act, I hereby determine and certify that, for the following major 
illicit drug producing and/or major illicit drug transit countries that 
do not qualify for certification under section 490(b)(1)(A), the vital 
national interests of the United States require that assistance not be 
withheld and that the United States not vote against multilateral 
development bank assistance:

          Cambodia and Haiti.

      Analysis of the relevant U.S. vital national interests and risks 
posed thereto, as required under section 490(b)(3) of the Act, is 
attached for these countries.
    I have determined that the following major illicit drug producing 
and/or major illicit drug transit countries do not meet the standards 
for certification set forth in section 490(b):

          Afghanistan and Burma.

    In making these determinations, I have considered the factors set 
forth in section 490 of the Act, based on the information contained in 
the International Narcotics Control Strategy Report of 2001. Given that 
the performance of each of these countries has differed, I have 
attached an explanatory statement for each of the countries subject to 
this determination.
    You are hereby authorized and directed to report this determination 
to the Congress immediately and to publish it in the Federal Register.

    Senator Chafee. Thank you, sir, very much.
    My question relates to the multilateral evaluation 
mechanism that was mandated by the 1997 Summit of the Americas. 
Is there a similar mechanism for those countries outside the 
hemisphere?
    Mr. Beers. Sir, as a result of the 1998 U.N. General 
Assembly special session, there was mandated coming out of that 
session a requirement to develop such a mechanism. The 
Committee on Narcotics and Drugs of the U.N. General Assembly 
has met on that issue. It has begun a process to create 
something similar on a global basis. But it is far, far from 
being at a stage even of the multilateral evaluation mechanism 
within the Western Hemisphere. That in fact was used as the 
model for the look on a global basis of a similar mechanism.
    Senator Chafee. It might be noted that not quite half of 
the countries that were certified but nonetheless on the list 
are from outside the hemisphere.
    Mr. Beers. Yes, sir.
    Senator Chafee. Senator Dodd.
    Senator Dodd. Thank you, very much, Mr. Chairman.
    Thank you, Mr. Beers, for your work, by the way, over the 
years in this area. We appreciate your continued involvement 
with it.
    That change, by the way--in this year's list there are two 
changes on it from last year; is that correct?
    Mr. Beers. That is correct, sir.
    Senator Dodd. Why do you not identify the change for us?
    Mr. Beers. Last year Paraguay received a national interest 
waiver and Nigeria received a national interest waiver. This 
year they are judged to be certified.
    Senator Dodd. The law actually says ``fully cooperating.''
    Mr. Beers. Yes, sir.
    Senator Dodd. As we all know, that is the word that 
oftentimes attracted a lot of debate, because, while there is a 
lot of cooperation, sometimes to get full cooperation is always 
where the lines can get drawn, I suppose. It makes it more 
difficult to some degree.
    Mr. Beers. Yes, sir. There is clearly judgment involved in 
each of those decisions.
    Senator Dodd. We appreciate the effort you make to do so.
    Just a couple of points. One, you know we have introduced a 
bill, and I do not know whether the administration at this 
point is prepared to talk about specific pieces of legislation. 
But I think you sort of outlined what we have tried to describe 
here and that was the suspension for a Congress. I use the 
Congress because by the time Congress gets up, you get a new 
administration in place--we do not even have a lot of the 
officials to be named to be confirmed yet who would be dealing 
with these issues. So my concern is that we are going to lose 
probably 6 or 8 months just getting personnel in place before 
you try and put together a proposal.
    But in the meantime, we keep and allow the President to do 
exactly what you have described. So I am not going to ask you 
to endorse a particular piece of legislation, but we have been 
listening carefully to your ideas and thoughts on this process 
as we try to come up with a new scheme and a framework, and I 
appreciate it.
    Two questions. One, a lot of criticism has been raised 
about international organizations and their efforts and how 
successful or unsuccessful they have been, particularly the OAS 
and the U.N. What have they been doing in your mind and are 
their programs something that we could look to to build on or 
replace that ought to give us any encouragement at all? Or in 
your observation--and use your own language here, obviously--
have the OAS and U.N. efforts in this area been a failure?
    Mr. Beers. Thank you, sir. To answer those questions, if I 
might just specifically answer your alluded-to first question. 
We are not going to comment on any of the specific bills at 
this particular time, but we do certainly remain open to 
discussions on any and all of them and hope that this committee 
and other work will coalesce into a single proposal, if you 
will, that we could then be in a position to take.
    Senator Dodd. Well, it would be helpful to know what the 
administration feels about it. None of us want to go ahead and 
draft something and then have you object to it. So obviously it 
would be important that you indicate whether we are heading in 
the right direction or the wrong direction on various ideas.
    Mr. Beers. That is why the core of this position is that we 
would like to retain an enforcement mechanism of some form in 
any final form that this might take. But we are open to 
discussing how we get from here to there.
    With respect to the international organizations, let me 
speak first about the OAS. As a result of the 1998 Summit of 
the Americas in Santiago, which then directed the OAS to 
actually begin the process of developing the multilateral 
evaluation mechanism, I participated in the negotiations of the 
final framework that was to be used for the evaluation. It took 
more than a year to come up with. We then created the system of 
creating international experts independent of governments to 
actually go through that review.
    By all of our estimation, those of us who participated in 
this process, it was a true example of the changes that have 
taken place in the hemisphere first, as indicated earlier. We 
do not talk about producers and consumers in the same way that 
we used to, in the same confrontational way. We talk about it 
being a hemispheric problem, about all of us having the problem 
and all of us needing to work together, and shared 
responsibility is the sort of foundation of all of that 
discussion. That is the way it proceeded.
    That said, no one, no one, would say that what we did in 
terms of the first year's evaluation represents yet a fully 
functioning, credible multilateral evaluation mechanism. We 
laid down a benchmark, if you will. We looked at what nations 
were doing, we looked at what nations were planning to do. We 
made some judgments about that, the experts did, and then the 
OAS endorsed those recommendations.
    We are going to take several years for this process to 
mature to the kind of system that in fact would be a credible 
replacement for certification. But it is a process that I think 
is working, and I say that from personal experience, and we 
should be supportive of that process as it moves forward.
    With respect to the United Nations, as I indicated in 
response to Senator Chafee, it is much further away, but we do 
have programs of credible cooperation with the U.N. system and 
with other international partners in the U.N. context. The one 
that I would point to now, which is still in the early stages, 
though, is an effort to focus on Afghanistan as a major heroin 
producing country, not so much for the United States, but 
certainly, for the European Union and states of the former 
Soviet Union.
    There is indication now that the ban that the Taliban have 
put on the production of opium poppy may in fact be working in 
the sense that there may not be as much opium poppy growing in 
Afghanistan today at this point in time as there was last year. 
But I would also say that that is very much the beginning of a 
process. There was so much overproduction in years past that 
there are huge stockpiles.
    Senator Dodd. That may be the only positive thing you can 
say about the Taliban, by the way. If someone was trying to 
find something positive you could say about the Taliban, you 
have told me. But the things they do that are terrible would 
outweigh----
    Mr. Beers. They are horrible, but on this issue and with 
U.N. pressure on them we may be seeing some progress. I do not 
want to claim victory by any stretch on that, but we may be 
seeing some progress. It will be interesting over the years 
ahead to see if in fact that U.N. sanction, that U.N. look at 
Afghanistan, in fact may lead to some success there.
    Senator Dodd. Get some results.
    Two quick ones. My time is up. I unfortunately am not going 
to be able to stay, and I want to apologize to Bernie Aronson, 
my friend, if I do not stay for his testimony. He has been 
sitting here patiently. I know what he has to say. I read his 
comments. Two quick things.
    No. 1 is, there have been some proposals that just would 
take Mexico out of the loop for the obvious reasons, here our 
neighbor, new administration. My concern about that is the 
potential problems we create with other allies in the 
hemisphere by sort of separating one out and leaving others in 
and creating its own sort of tensions. I wonder if you would 
comment on that.
    No. 2, I have been down in Colombia here the last few days 
with Senator Chafee, and Senator Biden has been down several 
times I know of, I think, in the last year. Senator Nelson was 
down with Carl Levin and others after we were down, the week 
after we were down. I always felt that the concern--we 
decertified Colombia back in 1996 and 1997. When I look today 
at the paramilitary, the FARC members that move back and forth, 
and this narcobusiness now in Colombia, which it is hard to 
separate the lines--everybody seems to be in the business one 
way or another--that that period, that 2 years when we 
basically decertified Mexico, we sort of, we almost created a 
vacuum in which a lot of this began to happen.
    Now, it did not all happen at once. But I am curious just 
from your observations whether or not, looking back now 
retrospectively, whether or not that decertification, which for 
the Samper government obviously created some serious problems, 
but sort of walking away in a sense did not in some way 
contribute to the problems we are seeing today in that nation, 
the magnitude of the problems we are seeing.
    Mr. Beers. Sir, first with respect to the Mexico issue, as 
I indicated in my prepared and oral remarks, we also do not 
favor any singling out for exemption of any individual country, 
for exactly the reasons that you allude to. It is more problem 
overall than it is benefit for that individual country perhaps.
    With respect to the issue of Colombia, you pose a very 
interesting question and I am sure people will disagree about 
this for some time to come. I would first focus on the fact 
that during the period of decertification the level of 
cooperation between our DEA and the Colombian national police 
and the level of effort on the part of the Colombian national 
police increased a great deal. It was during this same period 
that the Colombian national police in fact became an 
organization within Colombia that came to be viewed as a 
credible police organization, as opposed to a corrupt 
organization.
    Now, obviously a lot of that is dependent upon General 
Serano and his leadership of that organization at that time. 
But I certainly have the impression, and I think a number of 
others do, that he was given a free hand to do that because of 
the extreme pressure that had been put on the Government of 
Colombia by the fact that they were decertified.
    So cause and effect? I am not sure. But I certainly would 
not concede the point that in fact decertification was what led 
to the increased effort on the part of the Colombian national 
police and it was that increased effort that built the 
foundation for the level of cooperation that we are in fact 
able to undertake today and that the absorptive capacity of 
Colombia for the Plan Colombia supplemental might not be today 
what it is if it had not been for that ramping up of 
cooperation with the Colombian national police during that 
timeframe.
    Senator Dodd. Very good.
    I have taken more time than I should and I apologize. Mr. 
Chairman, I thank you, and please forgive me if I do not stay 
for the rest of the hearing.
    We thank you. We look forward to your soon cooperation on 
this. We do not have a lot of time on this thing.
    Mr. Beers. Yes, sir.
    Senator Dodd. So we are interested--if we are going to do 
something in a 2-year framework, you better do it fairly soon, 
because then you are not going to meet--you are going to have a 
self-fulfilling prophecy of failure on this and that is not 
going to serve anyone's interest. So we would appreciate as 
soon as possible to hear back on some of these ideas that are 
out there and any recommendations you would make, so we can put 
something together here fairly quickly and present it to our 
colleagues.
    Mr. Beers. Yes, sir.
    Senator Dodd. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Chafee. Thank you, Senator Dodd.
    Senator Biden.
    Senator Biden. Thank you.
    Rand, thank you, by the way, for your service. It took the 
longest time to get the State Department to pay attention to 
this issue. As you know, I have been the thorn in the side----
    Mr. Beers. Certification has had a value, sir, if only 
within the State Department.
    Senator Biden. I have been a thorn in the side of the State 
Department on this issue for 15 years or longer. I think you 
have done a really fine job.
    I would like to followup on the question that Senator Dodd 
just asked you. It is true and it can be argued that it is 
possible that by decertifying, some domestic programs, some 
programs that would aid the domestic economy of Colombia were 
hurt and theoretically that could have had some negative impact 
upon the economy and upon the psyche even of the Colombians.
    But I would point out that people who say that there has 
been no progress, maybe I have been doing this too long and 
maybe you have been doing this too long, but I remember the 
days when we would sit here and the Medelin Cartel and the Cali 
Cartel were things of which movies were made and where billions 
of dollars were exchanged and they literally controlled entire 
areas of Colombia. Now a different group controls entire areas 
of Colombia.
    I want to remind everybody--you know better than I do--that 
it literally took the purging of the entire national police 
force, close to 5,000 people, to put together what no one ever 
thought would happen. If we had had this debate, this 
discussion, in 1992 about Colombia and said, you know, by the 
year 2000 they are going to have basically eliminated the Cali 
Cartel and the Medelin Cartel and, by the way, it is going to 
be the police force in Colombia that is viewed as the good guys 
and they are going to be the ones what people are going to look 
to and we will look to, I think most people would have thought 
you and I certifiable.
    But that is what has happened. That is what has happened. 
Now, not everything is perfect, but what has happened is there 
has been tremendous progress. I think that if we got some 
leaders of the various countries we are talking about in 
private, you will find they may tell you that they needed our 
threats to be able to carry out their initiatives.
    If I could make an analogy, one leader in the last several 
months--and I have been meeting with a lot of these folks--
indicated to me that the thing he most wanted done was to get 
American generals and the Joint Chiefs of Staff literally to 
come to his country and sit down with his military and say: 
Hey, fellows, here is the deal.
    What we keep forgetting is some of these very countries 
that we have talked about having put such a burden on by this 
process, we are able to allow that leadership occasionally, and 
it has worked occasionally, to say the devil made me do it; I 
do not want to have to do this to you folks; I do not want to 
have to purge you; I do not want to have to not appoint so and 
so and so and so and so and so in charge; but look, if I do we 
are not going to get the following assistance; so as good 
citizens of whatever country, step down.
    But yet the debate persists here, and it is the only 
thing--I do not think there is anything I have disagreed with 
Senator Dodd on in the 20-some years we have worked together 
except the emphasis, the emphasis on where our pressure comes 
down. Is it a net negative or a net positive?
    But let me get to my question, and that is that one of the 
things I have been impressed with in recent visits to the 
region is the astounding progress Peru has made and the 
astounding progress that Bolivia has made in terms of 
cultivation. Now, that could all turn tomorrow. This thing 
could just flip tomorrow. But there has been significant 
assistance from the U.N. on those initiatives.
    One of the reasons why Colombia is where it is today is 
because it used to be, as you know better than I do, it was the 
place where the coca leaf was turned into cocaine. Now it is 
the place where the coca leaf is grown as well as turned into 
cocaine as well as exported. Part of that is because other 
countries have acted in a way effectively to shut down their 
production.
    So my question is this. As it relates to the producing 
countries--and right now Mexico is more a transiting country 
than a producing country--as it relates to the producing 
countries, it seems to me we are approaching an opportunity, an 
intersection here, where if we follow through on what we did 
not follow through on on the Andean Project, when George the 
first was President, if we did that, if we act--I did not mean 
that facetiously. It came off the wrong way. How do you say, 
the former President Bush? The first George, OK.
    He had an Andean plan where crop substitution, trying to 
invigorate the copper mines, trying to build infrastructure 
that would not, meaning roads and highways and water systems, 
et cetera. But the commitment waned.
    I think our biggest failing on dealing with the producing 
countries has been our unwillingness to provide and seek among 
our allies and friends more support for the economic side of 
the equation for these countries. You may recall, at the very 
moment we really had made a dent and the Colombians had made a 
dent on production and export out of Colombia and the region, 
what did we do? We let the International Coffee Agreement 
collapse. And we cut off their ability to sell cut flowers in 
the United States, their two single biggest industries and 
exports to the United States. We got into a fight with them.
    So while we were trying to keep cocaine off our streets, we 
got in a fight because coffee prices were rising too high in 
the supermarkets. So we instead crushed--not crushed; wrong 
word--we impacted negatively on their one cash crop that we do 
not mind having exported to us, coffee, and we impacted on, as 
related to our accusation of unfair trade practices, on their 
cut flower industry, which is a gigantic industry to them and 
to us.
    I find that counterproductive. Now, it is not the same 
circumstance now. So it is a very long prelude to a short 
question. Do you think we can, and if you do should we, be 
emphasizing, as relates to Colombia in particular but also the 
whole Andean region, so we do not let this success in Peru and 
Bolivia escape us, provide more economic assistance? Were I 
President, I would be asking our NATO allies, who also are the 
victims of this--victims; are the recipients of this export--to 
be sitting down and saying, you do not like Plan Colombia that 
much, how about let us come up with Plan Andean and us come up 
with several billion dollars to help them begin to transform 
their economy and put these folks to work, who we are putting 
out of business by the fumigation process?
    Talk to me just a little bit about that, Rand. And I will 
cease, Mr. Chairman.
    Mr. Beers. Thank you for this opportunity, and I truly do 
mean that. As you, I too have been around for a long time, 
through several administrations, from both sides of the aisle, 
and I do believe that this is the best opportunity that we will 
ever have. It is not so much that it is new ideas, but that it 
is ideas whose time has, I hope, finally come. But, as has been 
our problem in so many instances, it is not something that we 
are going to solve at a single stroke or in a single year. It 
is going to have to be a process that we all agree or have 
agreed to begin.
    Senator Biden. If you will allow me, or on the cheap.
    Mr. Beers. Or on the cheap. I was getting to that point 
too, sir.
    Senator Biden. OK.
    Mr. Beers. I believe that we are going to have to do that. 
I think that the Plan Colombia supplemental represented an 
excellent start, but it is only 1 year's worth of funding. As I 
said yesterday two floors below, this administration will come 
forward with a package which will be significant, which will be 
regional, which will be more devoted to alternative development 
and social programs and economic assistance than the preceding 
package was.
    We have heard you and we have heard others in that regard. 
It will reach out internationally again and make exactly the 
points that you have made, sir, in terms of economic assistance 
in partnership with international donors.
    If I might, just one brief historical comment. One of the 
dilemmas that we had with respect to the earlier aid package 
that was put forward during the first Bush administration was 
that Colombia, because of the state of its economy, was too 
rich to be an aid recipient. So while we did do 
counternarcotics assistance, we did not do at that particular 
point in time any economic assistance.
    But I think one of the problems, if I can look back 
historically on that period, was we did not persist with that 
effort.
    Senator Biden. And I am not casting blame on anybody.
    Mr. Beers. That is not casting blame on either the Bush 
administration or the subsequent Clinton administration. It is 
simply that we sort of did not finish the job. We only began 
the job. I think that if there is a lesson to be learned from 
that point in time, it is that this is not a short-term and it 
is not an inexpensive proposition. We have to look seriously 
and we have to look over time at trying to deal with this 
process.
    If we do and if we do it in a comprehensive and integrated 
fashion--and your comments about trade policy intersecting with 
counternarcotics policy and creating a dysfunctionality are 
absolutely on the mark. This is a policy approach which has to 
be comprehensive across the range of U.S. and international 
policy toward this region, and we have to look at all of those 
decisions.
    Senator Biden. Rand, I think you and I and a few others 
finally have everybody's attention here--I mean this 
sincerely--because of a confluence of certain things that have 
happened, some of them very good, like the two new leaders in 
Mexico and Colombia.
    Mr. Chairman, I know I have gone over my time and I will 
cease with this. I truly welcome, as the ranking member of this 
committee, your interest in this issue and this subcommittee. I 
hope that we all understand, though, that no matter what we do 
on the certification or decertification process, no matter what 
we do on significant increases in my Judiciary Committee and 
the Health committee dealing with making sure that we provide 
more treatment and education, that we finally figured out--
Congressman Gilman said they are the pieces. I think the pieces 
have changed slightly.
    The way to deal in my view with the producing countries is 
not only to put them in a position which we have focused on of 
late, of giving their counternarcotics capability a reasonable 
shot, and they have been reluctant to do that until recently, 
but also deal with, help them deal with their internal economic 
problems that allow for--if you study Colombia, if you study 
any of these countries, you realize that they end up where they 
are in large part because of dysfunctional systems they have, 
because of dysfunctional societies relating to access to 
opportunity within those societies.
    There is a lot we could do to be helpful now that there are 
leaders emerging from those countries who see this not through 
a single prism, not through a single lens. So I hope we think 
about, when we think about the notion of producing countries, 
not only whether or not we give them more time as it relates to 
decertification, not only give them more assistance as it 
relates to helping them on the enforcement side of the 
equation, but also go to them now at a time and undercut, for 
example, the FARC, undercut the ELN, by going in and giving 
them significant assistance relative to the wide disparity in 
income opportunities in those countries.
    There are things we can do that I think will give us a 
better shot of gaining hold of this. But as you know, Rand--and 
you and I have had this discussion--the last 4 years, including 
the Clinton administration, the last 5 years, to get anybody's 
attention here in the Senate or in the House or in the 
administration to do something bold about dealing with our drug 
problem, it has not been there.
    In the late eighties and the late seventies when I wrote 
this legislation, I could have asked for a zillion dollars and 
everybody would have given it. Anything we asked for we got, 
because everybody was--every poll in America showed the No. 1 
problem people were concerned about was crime and drugs, and so 
we got it.
    It is kind of like, it is like cutting grass. You have got 
to keep cutting it, you have got to keep cutting it. You cannot 
cut it once and say, I got it down now and now I can go home.
    So I hope, Mr. Chairman, I can work with you and others, 
many others on both sides of the aisle, to come up with a 
comprehensive notion and support the administration, because I 
believe this is something President Bush understands. I believe 
this is something that he is interested in. I hope this is 
something that he will be willing to use his leadership to 
follow through on, because we have a real opportunity right 
now, a real opportunity.
    I thank you for your time.
    Senator Chafee. Thank you, Senator Biden. Yes, we have to 
keep cutting the grass.
    Senator Biden. That is right, you really do. It is like 
what is going on in law enforcement now. We are talking about 
cutting the budget for the crime bill. Give me a break. We got 
crime down 8 years in a row, an average 7 percent a year, and 
people go: OK, we got that done now; we do not need another 
100,000 cops; we got that finished; we do not need to do any 
more.
    It amazes me. But it is like cutting the grass. You let it 
go now--there is no way we can spend less money. We have to 
spend more money to deal with these problems. The moment you 
spend less money, I promise, that grass grows.
    Senator Chafee. We will also be having hearings on, as Mr. 
Beers said, the administration's proposal on expanding Plan 
Colombia, whether it is an Andean plan or something along those 
lines. There will be other opportunities.
    Thank you so much for your time and testimony.
    Mr. Beers. Thank you, sir.
    Senator Chafee. I would like to welcome the Honorable 
Bernard Aronson, former Assistant Secretary of State for Inter-
American Affairs.

 STATEMENT OF HON. BERNARD WILLIAM ARONSON, MANAGING PARTNER, 
 ACON INVESTMENTS, AND FORMER ASSISTANT SECRETARY OF STATE FOR 
             INTER-AMERICAN AFFAIRS, WASHINGTON, DC

    Mr. Aronson. Thank you, Mr. Chairman.
    Senator Chafee. Thank you for your patience. Good morning.
    Mr. Aronson. Good morning. Given the lateness of the hour, 
maybe I will just make a few comments if I could.
    Senator Chafee. I look forward to them.
    Mr. Aronson. First of all, I want to commend you and the 
committee for holding this hearing. In my experience, usually, 
we pay attention to Latin America when there is a crisis and we 
are trying to put out a fire. I think you and the committee are 
trying to be preemptive and take advantage of an opportunity, 
and I commend you for that.
    If you listen to the discussion it seems to me there is a 
large degree of consensus, which I think bodes well for your 
chances of shaping legislation. There is a consensus that 
narcotics production, distribution, and transit is a national 
security threat to countries in the region and has to be dealt 
with and that interdiction plays a role. There is clearly a 
consensus that we have to do more on the demand side.
    I think there is a consensus that we need accountability in 
the certification process, and I applaud the fact that in 
Senators Dodd and McCain's bill the reporting requirements and 
the designation of major suppliers and transit countries 
continue.
    But there also seems to be a consensus that certification 
is a tool and that we ought to take a look at it and see if we 
can perfect it. That is what I understand the 2-year hiatus to 
be. So let me suggest a few thoughts about how to perfect it 
and what you might do with the 2 years.
    In my experience, one of the problems with certification is 
that the choice is all black or white. You either do it and 
invoke the full level of the sanctions or you do not. I think 
if we had a longer time to debate Colombia, both sides were 
right; decertification had a positive effect, but it also 
helped create a vacuum into which the FARC and others took 
advantage.
    So one suggestion I would have would be to provide a menu 
to the President which he could use and to offer more sanctions 
than currently exist. For instance, one of the greatest 
sanctions the United States has in Latin America--this may come 
as a surprise--is to lift the visas of those who are engaged in 
the drug trade or are suspected, or are not cooperating. I 
think that ought to be a tool in the certification process that 
the President might use alongside economic sanctions. So you 
might maintain the economic benefits and lift the visas of 100 
people in the Congress, police, army, and the business 
community who are drug traffickers. It has an effect when it is 
a visa to the United States.
    A second suggestion I would make to use this 2-year hiatus 
is to review something that we began in the first Bush 
administration, which was drug summits with producing and 
consuming countries. We started in Cartagena in 1990 with Peru, 
Bolivia, and Colombia. We went to San Antonio and included 
Mexico. I think it takes some of the sting out of the 
certification process if we first bring the countries involved 
in on the development of the standards and we set goals for 
them and us that they are part of formulating.
    It is the old saying that is good advice for the executive: 
if the Congress is not in on the takeoff they are not going to 
be in on the landing. I think the same is true on a common drug 
strategy. So I think that is another thing that the executive 
should consider doing. Those drug summits send a message and 
reinforce certification.
    Third, I would strongly associate myself with those who 
have made the point that we have to stay the course. I was part 
of the original Andean drug strategy. We spent some money, and 
we charged up the hill, and then we charged back down again. 
That does not work.
    I think Senator Biden is dead right both about domestic law 
enforcement and international law enforcement. This is a long-
term struggle to defend democratic institutions and the rule of 
law. Interdiction is important because if we do not interdict 
then countries are going to become criminalized and they are 
going to be Lebanized and they are going to be taken over by 
criminal gangs, and it is not just drugs we are going to face, 
it is going to be immigration trafficking, and gun trafficking, 
and there will be hell to pay.
    Interdiction has to be part of it, but we cannot fight this 
war like Desert Storm. I think we have gotten impatient as 
Americans. This is like World War II, where you take an island 
and then you take another island, and it is a long, drawn-out 
struggle, and it has to continue. I totally agree with that 
point.
    I think the 2-year extension is a good one. As I understand 
it, the President would still have discretion to invoke 
certification if he thought that was necessary. I think that 
ought to be a part of the bill, including the sanctions. But, 
again, if you create a Chinese menu of sanctions that the 
President can use, he does not have to either send a nuclear 
missile or do nothing. He can pick and choose, or she can pick 
and choose, and he can invoke sanctions for 3 months and then 
lift them. Then, it seems to me you have the leverage that is 
correctly needed. I think Senator Biden and Congressman Gilman 
are right, if you do not have leverage and consequences you are 
not going to have any teeth in this. But if it is simply a 
blunt instrument, you are put in the position of either using 
something that is too heavy or doing nothing.
    So, I think some process where we set goals for ourselves 
as well as Latin America, where we are held to standards, too, 
so there is more dignity in the process would be an important 
change in certification. I believe also the President should 
have a lot of discretion about whether to invoke this or not 
and it is not mandatory, a range of sanctions that he can pick 
and choose among, invoke, or take back if there is a positive 
response. In Colombia, if we had decertified perhaps for 6 
months, but waived economic sanctions and lifted visas for 100 
people, it might have had the same incentive effect, but it 
would not have destabilized Colombia at a very difficult time 
that others have taken advantage of.
    I think if we can build some bipartisan trust and a working 
consensus with the administration, I think we can do what the 
committee wants to do. I applaud it again for doing so: which 
is to perfect this instrument and to make it more useful, but 
it has to be part of a larger strategy.
    I would just remind the committee that, with regard to 
Colombia, there is nothing you could do right now that would 
help create economic alternatives more than to expand and renew 
the Andean Trade Preferences Act. Colombia right now is 
disadvantaged because the good work you did with regard to the 
Caribbean Basin on textiles and apparel now disadvantages 
Colombia because they are behind, and they are going to lose 
several hundred thousand jobs unless the Congress moves in the 
same direction with regard to the Andean countries.
    I also agree with Senator Biden's point about our allies. I 
think Europe is still practicing a kind of denial about this 
issue, like we did 20 years ago. It is a huge consumption 
problem there. I think with regard to Plan Colombia they are 
sort of missing the forest for the trees. Part of our agenda 
for the G-7 and other groupings ought to be to enlist Europe 
and Japan in reaching out and providing aid, and providing the 
same kind of trade preferences.
    I think an Andean Trade Preference Act that included the 
European Union, the United States, Canada, and Japan would be a 
powerful instrument to help these countries as we wage this 
battle. But it has got to be a broader strategy and it has to 
be a long-term strategy. We get very impatient as Americans, 
but look at how many years it took us to take down our own 
mafias in this country. It took 50 years. Everybody knew the 
Mafia controlled the Fulton Fish Market and the cement trade 
and the garbage-hauling in New York City, but until we 
developed the RICO statute and the will to take them on they 
operated in our countries, too, and we are a heck of a lot 
richer and better organized than some of these countries in 
Latin America.
    So I think we need to have the will to do this right and to 
do it on a bipartisan basis.
    Senator Chafee. Thank you very much once again. Very well 
said.
    You were talking about Andean trade. Getting off the 
subject of certification would you care to comment on the Free 
Trade Area of the Americas? Is that also beneficial?
    Mr. Aronson. It is extremely beneficial, and I hope that we 
can also resolve this legitimate domestic debate about the 
terms of trade. When we were moving forward with the vision of 
extending free trade throughout the hemisphere, we empowered 
all the reformers, all the good guys. They had leverage to take 
tough decisions internally to open up their economies because 
there was a great prize to be gained, which was access to our 
market.
    When we retreated from that, we undermined the reformers. 
Now the cohesion and the sort of momentum that we had where the 
hemisphere was moving together toward a common goal has been 
dissipated, and you see a heck of a lot more centripetal forces 
in the region. Frankly, Latin America has a lot of troubles 
these days. The Andean region has never been in more trouble 
politically and socially and in terms of national security in 
the last 50 years, and it does affect us.
    So I think we should move forward with the FTAA. I think 
that there is a decent bipartisan compromise to be struck on 
labor and the environment, if we have goodwill and are truly 
committed to finding a compromise we could that would allow us 
to have fast track, which has now been renamed ``trade 
promotion authority.''
    But I think we need to get going on that as well, Mr. 
Chairman.
    Senator Chafee. I do think that trade policy does affect 
narcotics and the specific focus of today's hearing.
    Mr. Aronson. There is no question about it. What Senator 
Biden and others said is correct. Largely on the growing side, 
these are campesinos. They do not make the money. They are in 
many ways exploited. The people who grow coca leaf in these 
regions are very poor people, and in many cases they do not 
want to be in the drug trade. But you cannot take away the 
trade they have to feed their families and put nothing in its 
place and expect them to stay out of the drug trade.
    They will grow coca leaf--if that is the only licit crop, 
if that is the only place where they can get the product out, 
if that is the only place where there is a transportation 
network, which is true in many regions in Colombia. So I think 
we have to have a broad strategy that recognizes that this is 
defending democratic institutions and building democratic 
institutions, it is extending alternative development, it is 
taking down these criminal enterprises.
    I agree with the Senator also on the Medelin Cartel. I 
remember when Newsweek ran a cover story and said they were the 
``Kings of Cocaine,'' they were untouchable, they were all 15 
feet tall, they were more powerful than the state, and they 
listed 50 of them. Virtually everybody on that list is either 
in jail or has gone, not to purgatory, but wherever they should 
have gone. And they were taken down with a strong effort by 
Colombians and with a lot of help from the United States.
    Senator Chafee. Senator Biden.
    Senator Biden. Bernie, thank you very much. I appreciate 
your being here.
    Just one thing that I--there are many things that I have 
overlooked, but one of the things that I have overlooked in as 
much time as I have spent on this, and I did not realize its 
potential significance, was the lifting of visas. You and I 
both know there are certain people in some of the countries we 
have mentioned where we have asked the leadership to make 
difficult decisions to purge them, jump over them, let them go, 
et cetera, sometimes on our own advice, and then we turn around 
and we give them visas and they are dining in Miami, they are 
up in New York for a play.
    I must tell you, I underestimated the significance of 
denying visas to those 10 or 100 people in the various 
countries. You do not have to do it now, but at your leisure I 
personally would like to know, and maybe the committee as a 
whole would, too, if you were in my spot who would you be going 
to in this administration to make the case and how would we be 
drawing up that list?
    In other words, it is an area that I am a little like 
that--they used to have the joke about Texas. It is not about 
Texans. I am like that guy from Texas who said: I do not know 
much about art, but I know what I like. Well, this is the one 
area I really have not looked at. I personally, and maybe the 
committee as a whole, could use some very specific advice on 
how we get--and maybe the administration is already looking at 
it, in fairness to them--how we get to the point where in the 
near term we take some of these leaders off the hook by denying 
visas to some of the very people we have said are a problem.
    Mr. Aronson. Senator, I totally agree with you. There is a 
former Colombian general right now who was purged from the 
Colombian military who meets with Carlos Castana, the leader of 
the paramilitaries, and supports their activities, and he has a 
visa to the United States. The signal it sends is that somehow 
it is a Good Housekeeping Seal of Approval.
    Senator Biden. Absolutely.
    Mr. Aronson. Conversely, when you take it away the signal 
is this guy is no good.
    But I would suggest that the committee look at a whole 
range of sanctions that you could build into a certification 
process, like visas, like asset seizures, like going after 
assets in the United States, like proscribing their business 
activities from any form of U.S. assistance or participation.
    It is very similar to the debate you have been having up 
here about economic sanctions. It is such a blunt instrument 
when you wield it on an entire society, many of the victims are 
people what do not deserve it. Yet you want to find a way to 
target the people you want to target. It seems to me that you 
take some of the sting out of the certification process, or 
some of the difficulties, in addition to all these other 
mechanisms we have talked about like multilateral mechanisms, 
putting ourself under the microscope, if you came up with a 
whole range of sanctions, such as visas, targeting assets, and 
maybe some others that we have not thought about, you laid them 
out and let the President choose among them. Then he might say: 
I am not going to stop OPIC and Eximbank and IMF for Colombia 
at a time when it is fighting for its life against guerrillas, 
but there are 250 people who are complicit in the drug trade 
who are going to get sanctions, whom we are going to make them 
pariahs internationally, whose assets we are going to attach, 
and that would have as much effect.
    Senator Biden. Would you be willing to work with me on 
that, drawing up such a list with Brian and myself, to actually 
sit down and do that?
    Mr. Aronson. Sure. In my experience, those kinds of lists 
are a lot easier to put together than people think. I think we 
always know.
    Senator Biden. I think you are right. I must tell you, 
though, it has just been recently in a couple conversations 
over the last 6 months with some of the folks what are making 
these hard calls and they look at me and say: But Joe, general 
so and so is in town. What does that say back in wherever?
    Mr. Aronson. Exactly.
    Senator Biden. Well, thank you, Bernie. I will call you.
    Mr. Aronson. Happy to do it.
    Senator Chafee. Thank you very much for your time and 
testimony.
    Mr. Aronson. Thank you.
    Senator Chafee. We look forward to working with you in the 
future.
    The hearing is adjourned.
    [Whereupon, at 12:08 p.m., the committee was adjourned.]

                              ----------                              


                  STATEMENTS SUBMITTED FOR THE RECORD


    PREPARED STATEMENT OF MATHEA FALCO, PRESIDENT, DRUG STRATEGIES, 
                             WASHINGTON, DC

    Mr. Chairman, I am delighted to have the opportunity to submit 
testimony to the Foreign Relations Committee on the utility of the 
certification process.
    I am President of Drug Strategies, a non-profit research institute 
that promotes more effective approaches to the nation's drug problems. 
My own interest and expertise in international drug control policy date 
to my service as Assistant Secretary of State for International 
Narcotics Matters from 1977-1981.
    Drug Strategies has played an active role in the debate over 
certification and the debate about the trajectory of U.S. international 
drug policy more generally. In 1995, I published an article on the 
certification process in Foreign Affairs. In 1997, I chaired the 
Council on Foreign Relations Task Force responsible for the report 
Rethinking International Drug Control: New Directions for U.S. Policy. 
In 1998, Drug Strategies published Passing Judgement, a review of 
certification's implementation and impact. For the report's release, we 
convened a major media forum featuring Members of Congress; key U.S. 
and Latin American government officials; and journalists from leading 
newspapers and magazines in the United States, Mexico and Colombia. The 
Century Foundation commissioned Drug Strategies' Senior Research 
Associate, John Walsh, to conduct an in-depth analysis of certification 
and possible alternatives. I would be happy to furnish all of these 
materials to your committee.
    When Congress debated the legislation that created the 
certification process in 1986, the House Foreign Affairs Committee 
cautioned against expecting too much from a sanctions approach, noting 
that

          U.S. efforts to persuade other countries to increase their 
        antinarcotics efforts are ultimately limited by the difficulty 
        of dealing with sovereign countries, the boundaries of U.S. 
        leverage, the competition of other U.S. national security 
        interests, and by the lack of a persuasive U.S. domestic 
        commitment and effort. Experience has demonstrated that 
        politically attractive solutions such as ``cutting off foreign 
        aid'' or vastly increased funding for international narcotics 
        activities will contribute only marginally to combating this 
        problem. (International Narcotics Control Act of 1986: Report 
        to Accompany H.R. 5352, Report 99-798, 1986).

    Fifteen years later, the Committee's words have been repeatedly and 
resoundingly confirmed. A charitable assessment of certification would 
find that it has proven irrelevant. A more accurate appraisal is that 
certification has proven detrimental, in both practical and symbolic 
terms. Intended to improve foreign cooperation with U.S. drug control 
efforts, certification has instead become a stumbling block to 
cooperation. Enacted to underscore U.S. resolve in confronting drugs, 
certification has helped perpetuate the myth that foreign supply rather 
than demand for drugs in our own communities is at the heart of 
America's drug problems.
    Despite its failures as a policy, the certification process 
persists because many Members of Congress still find it to be 
politically advantageous. The drug issue's potency in electoral 
politics (or at least its perceived potency) means that certification 
is not treated as some more or less arcane foreign policy matter or as 
a dry, technical matter of executive branch oversight. Instead, 
certification has become an annual platform for sounding tough on 
drugs--by attacking the administration, other countries, or both.

                       BUILDING ON SHAKY PREMISES

    Certification's policy failure extends directly from the flawed 
premises on which it was built. The 1986 certification legislation was 
rooted in bipartisan confidence in the supply-side approach to drug 
policy. Stepped-up drug control efforts in drug producing countries and 
at the border would translate into higher drug prices and reduced drug 
use at home. ``Winning the war on drugs,'' according to Rep. Dan 
Rostenkowski's House Ways and Means Committee, meant that ``the problem 
must be attacked at its source. . . . Increased pressure on foreign 
governments and increased enforcement at the border should 
substantially diminish supplies and drive up prices.'' (International 
Drug Traffic Enforcement Act: Report to Accompany H.R. 5410, Report 99-
794, 1986).
    Second, certification was based on a willingness in Congress to 
employ unilateral economic sanctions, and a belief in their 
effectiveness in pressuring other governments to do as the United 
States wished. If certain drug source countries were reluctant to 
control illegal crop production and smuggling activities, then, 
according to the House Ways and Means Committee, ``Greater economic 
pressures must be brought to bear on such countries.'' (Report 99-794, 
1986). The dual operating assumptions behind the certification 
legislation are that (a) the United States, with the threat of economic 
sanctions, can compel other countries to curb drug production and 
exports, and (b) if other countries would only do more to curtail drug 
supplies, our drug problem would be diminished.

                             A PAPER TIGER

    Neither of these premises has proven valid. As the House Foreign 
Affairs Committee foresaw, the leverage that the threat of 
decertification was meant to provide has never materialized. In the 
vast majority of cases, the threat is hollow, because of three key 
factors.

          1. For certain targeted countries, such as Afghanistan and 
        Burma, the sanctions entailed by decertification are 
        essentially redundant. U.S. relations with such countries are 
        already frayed, and little if any economic aid of any sort is 
        at stake in the certification process. In the 14 years of 
        certification decisions, just five countries--Afghanistan, 
        Burma, Iran, Nigeria and Syria--have accounted for almost all 
        of the decertifications issued. Only three other countries have 
        ever been decertifled: Panama (1988 and 1989); Laos (1989); and 
        Colombia (1996 and 1997).

          2. Even for the majority of targeted countries who are not 
        already considered pariah states, the sanctions actually 
        triggered by decertification amount to far less than the 
        rhetoric implies. The President can continue providing drug-
        related assistance (economic, military and police aid) to 
        countries that have been decertified. Humanitarian aid--such as 
        disaster relief, food, medicine, and refugee assistance--is 
        also exempt from suspension. Successive U.S. administrations, 
        for example, have considered virtually all bilateral aid to 
        Colombia to be drug-related, leaving little at risk of 
        suspension in the event of decertification. Colombia received 
        $56 million in U.S. aid in 1996 and another $82 million in 
        1997, despite having been decertified both years.
          Decertification requires the United States to vote against 
        any multilateral development bank (MDB) loans to the designated 
        country. U.S. opposition to MDB loans for a decertified country 
        is unconditional; no exemptions are made for loans to meet 
        basic human needs. But the significance of the U.S. vote 
        depends on the U.S. share of voting power (largely a function 
        of capital contributions) and on the voting rules of the 
        particular multilateral bank. Only in the Inter-American 
        Development Bank's (IDB) concessional Fund for Special 
        Operations (FSO) do U.S. voting power and the voting rules 
        combine to make a U.S. ``no'' vote tantamount to a veto. Among 
        the 14 Latin American countries currently subject to 
        certification, only Bolivia and Haiti are restricted to FSO 
        loans and would therefore be directly affected by a U.S. ``no'' 
        vote were they to be decertified. The other 12 countries are 
        eligible for the IDB's ``ordinary capital'' loans, which are 
        not vulnerable to a U.S. veto. For example, despite being 
        decertified in 1996 and 1997, Colombia received 18 World Bank 
        and IDB loans totaling $930 million. In 1996, the country was 
        awarded more in MDB loans ($676 million) than in five of the 
        previous nine years, a period when Colombia was always 
        certified, either fully or under the vital national interests 
        provision. In sum, for most countries neither the MDB nor the 
        U.S. aid sanctions are nearly as significant as they might 
        appear at first glance.

          3. Where U.S. relations with a given country are considered 
        so important that decertification is never considered a real 
        option--despite the negligible sanctions that are actually 
        entailed--the threat of decertification rings especially 
        hollow. The extraordinary case of Mexico illustrates the 
        failures of certification. Although the actual sanctions 
        triggered by decertification would be barely perceptible in 
        Mexico, and although Mexico has always been certified as 
        ``fully cooperating,'' Mexicans detest the certification 
        process itself as a hypocritical ploy on the part of U.S. 
        politicians to blame Mexicans for America's own failure to cope 
        with its drug problems. Other Latin Americans join Mexicans in 
        questioning Washington's moral authority to judge other nations 
        when U.S. demand for drugs fuels the illegal trade. Mexico's 
        apparent impregnability as far as decertification is concerned 
        does not diminish Mexican contempt for the process, even as the 
        double standard gives credence to the claims of the governments 
        of smaller Latin American countries that the process is 
        basically unfair. (Mexico is the United States' second largest 
        trading partner. In 1999, total U.S.-Mexican trade was more 
        than double the total U.S. trade with all the other 13 Latin 
        American nations subjected to certification that year.)
          Proponents of decertifying Mexico contend that unless the 
        U.S. government shows that it has the will to deny 
        certification to Mexico, cooperation will remain 
        unsatisfactory. But if the United States were to decide that 
        the risks of antagonizing Mexico by denying certification were 
        justified, there is little reason to believe that Mexican 
        antidrug cooperation would improve as a result. The sanctions 
        triggered by decertification pose little threat to Mexico: Very 
        small amounts of U.S. aid are at stake, and U.S. opposition 
        cannot prevent approval of World Bank or IDB loans to Mexico. A 
        decision to decertify Mexico would have to count on the 
        political embarrassment of the situation to prod Mexican 
        officials into line with U.S. priorities. Mexican contempt for 
        the certification process, combined with the political need to 
        avoid even the appearance of bowing to U.S. pressure, point to 
        an outcome of less cooperation, not more.

                           A FLAWED STRATEGY

    The certification process was devised as a tool to enhance the 
performance of the United States' supply-side approach to drug policy. 
Does the overall strategy in which certification is embedded make 
sense? If the supply-side strategy is fundamentally ineffective, then 
even perfect fidelity in implementing that strategy--including maximum 
cooperation from foreign governments--will not deliver the desired 
results.
    The appeal of a supply-side approach to drug policy is undeniable. 
Focusing on drug production overseas provides an easy way to sound 
``tough'' on drugs by excoriating foreign governments. The supply-side 
approach is also attractive because it appears to be logical: The 
easiest way to stop drug abuse would be to eliminate drugs before they 
get to the United States. According to the State Department's Bureau 
for International Narcotics and Law Enforcement Affairs (INL) budget 
presentation for fiscal year 1999, ``By stopping drugs from ever being 
produced or reaching our shores, INL programs probably deliver the 
largest returns of any federal anti-drug program.''
    The primary purpose of U.S. interdiction and international drug 
control programs--on which the United States has spent more than $33 
billion dollars since 1986--is to raise the price and reduce the 
availability of illegal drugs in the United States. By now, we should 
certainly expect there to be some evidence that the supply-side 
strategy works to make drugs more expensive and less available. In 
fact, despite our efforts, heroin's average U.S. retail price has 
fallen by 45 percent since certification was enacted, while the price 
of cocaine has dropped by 42 percent. Nor do supply-side efforts seem 
to have lowered availability. High school seniors in 1999 perceived 
crack cocaine to be just as available as seniors perceived it to be in 
1987 (in both years, 41 percent of seniors considered crack to be 
``fairly easy'' or ``very easy'' to get). Over the same period, the 
proportion of high school seniors who see heroin as ``fairly easy'' or 
``very easy'' to get has risen from 24 percent to 32 percent. In the 
face of considerably escalated U.S. supply-side efforts since 
certification went into effect, the key measures of success have 
plainly been headed in the wrong direction.
    These dismal results suggest that the supply-side strategy is 
itself seriously flawed, and that the alluringly simple logic of 
``going to the source'' is belied by a more complicated reality. Four 
major obstacles severely limit the potential of international supply-
control initiatives to reduce U.S. drug problems.

          1. The idea that eliminating drug production in foreign 
        countries would stop drug abuse at home overlooks the fact that 
        illicit drugs can be produced in the United States as well. For 
        example, domestic production accounts for an estimated one-
        quarter to one-half of U.S. consumption of marijuana, by far 
        America's most widely used illicit drug.

          2. Drug crops can be grown cheaply almost anywhere in the 
        world, and America's annual drug demand can be supplied by a 
        relatively small growing area. A 30 square mile poppy field--
        about the area of northwest Washington, D.C.--can supply the 
        U.S. heroin market for a year. The annual U.S. demand for 
        cocaine can be met from coca fields extending about 400 square 
        miles, roughly one-third the area of the State of Rhode Island. 
        In reality, of course, drug crop cultivation is not 
        conveniently located in one place. Farmers have strong economic 
        incentives, to shift, expand or modify cultivation as required 
        to protect their livelihoods. Enforcement directed at growers 
        tends to disperse cultivation to ever more remote areas, making 
        detection and eradication even more difficult.

          3. Interdiction may achieve impressive tactical successes 
        against drug traffickers, but these efforts are overwhelmed by 
        the volume of drug production. Drugs are now so plentiful that 
        even the largest seizures have little impact on drug 
        availability in the United States. Traffickers quickly move on 
        to new sources, shipments and routes. As U.S. Coast Guard Vice 
        Admiral Roger Rufe, Jr. explained to reporters in 1997: ``When 
        you press the balloon in one area, it pops up in another. . . . 
        It's a market economy; with demand as it is in the U.S., they 
        have plenty of incentive to try other routes.'' For example, in 
        the late 1980s, intense interdiction efforts in southern 
        Florida and the Caribbean pushed cocaine traffickers to switch 
        to routes through northern Mexico, where they formed 
        partnerships with Mexican trafficking organizations. The result 
        has been wealthier and bolder traffickers in Mexico, but no 
        diminution in the drug flow. New smuggling routes are 
        practically without limit, whether in the Amazon jungle or at 
        the U.S. border. This is especially so for a country intent on 
        easing the barriers to legal trade: Each year an estimated 436 
        million people enter the United States by land, sea and air; 
        116 million motor vehicles cross U.S. borders; and more than 
        nine million shipping containers and 400 million tons of cargo 
        enter U.S. ports. The amount of cocaine estimated to come 
        across the U.S.-Mexico border each year would fill only six 
        trucks--yet more than 3.5 million trucks and rail cars cross 
        the border annually.

          4. The price structure of the illegal drug market ensures 
        that even the most successful overseas drug control operations 
        will have minimal impact on U.S. prices. Almost 90 percent of 
        the price of drugs on U.S. streets is the result of the value 
        added due to the risks of distributing and selling drugs after 
        they enter this country. The total cost of cultivating, 
        refining and smuggling cocaine to the United States accounts 
        for less than 15 percent of retail prices here. As one Drug 
        Enforcement Administration (DEA) official has explained, ``The 
        average drug organization can afford to lose as much as 70 
        percent to 80 percent of its product and still be profitable.'' 
        As a consequence, even the most effective eradication and 
        interdiction campaigns in producer countries have little, if 
        any, effect on U.S. drug prices.

                          STATE OF THE DEBATE

    The inherent obstacles to supply-side drug policy have been 
discussed for years. Detailed accounts have been published by RAND, the 
Council on Foreign Relations, and the U.S. General Accounting Office 
(GAO), as well as in the academic literature. For example, a 1988 RAND 
analysis concluded that, ``Increased drug interdiction efforts are not 
likely to greatly affect the availability of cocaine in the United 
States,'' primarily due to ``the small share of total drug distribution 
costs that are accounted for by the smuggling sector.'' A 1994 RAND 
report found treatment to be ten times more cost effective than 
interdiction in reducing cocaine use in the United States, and twenty-
three times more cost-effective than source country drug control 
programs. U.S. government publications have also described some of the 
basic obstacles to supply-side success. The GAO has reported to 
Congress on the speed with which drug traffickers adjust to enforcement 
pressures. The CIA and the State Department published the proceedings 
of a 1994 conference on the economics of the drug trade that featured a 
presentation of how the illegal drug market's price structure limits 
the value of antidrug operations at the ``source.'' In short, analysis 
that raises basic questions about current policy--and a growing body of 
supporting evidence--have been in the public domain for some time, and 
readily available to Members of Congress and their staffs.
    Yet, the recurring debates in Washington over international drug 
policy show barely a trace of this fundamental critique. Having raised 
expectations about what can be accomplished through supply-side 
polices, officials are now loathe to tell voters that in fact very 
little has been achieved. The key question for policy makers should be 
whether the evident lack of success to date stems from inadequate 
implementation of an otherwise sound policy or whether the poor results 
reflect more fundamental strategic flaws. But policymakers have not 
addressed whether the strategy is appropriate, arguing instead that 
success simply requires more resources, more time, and better 
coordination. Operational problems--faulty coordination, lack of 
continuity, and resource constraints--may contribute to the policy's 
poor record, but they are not decisive, even when taken together.
    The certification process has not improved the track-record of 
supply-side policy in meeting its own goals: U.S. drug prices--which 
supply-control policies backed by the certification process were 
supposed to push higher--have instead declined. Policymakers have 
focused on how U.S. supply-side policies might be better implemented; 
the annual Congressional debates surrounding particular certification 
decisions are now a staple of this discussion. But the debates over 
certification have always been limited by the implicit assumption that 
U.S. supply-side policy can achieve its objectives. Unfortunately, that 
policy suffers from elemental flaws, which limit interdiction and 
international drug control programs to a marginal role, at best, in 
U.S. efforts to reduce drug abuse. Certification compounds the problems 
inherent in the supply-side approach by reinforcing the notion among 
policymakers and the American public that foreign governments can play 
a decisive role in reducing drug abuse in this country.

                                 ______
                                 

           WOLA  <BULLET>  WASHINGTON OFFICE ON LATIN AMERICA

  EXERPTS FROM ACROSS THE SPECTRUM CALL FOR REFORM OF THE ANNUAL DRUG 
                         CERTIFICATION PROCESS

                           (January 30, 2001)

``Congress should end the requirement that U.S. Presidents annually 
certify Mexico's cooperation with its anti-narcotics efforts. In 1997 
and 1998, President Bill Clinton certified a non-compliant Mexico while 
not certifying Colombia, despite evidence that efforts in both 
countries did not merit certification. Such dual treatment is an 
irritant to hemispheric relations and undermines the effectiveness of 
the certification process.''

        Stephen Johnson, The Heritage Foundation
        U.S.-Mexico Relations: No More Business as Usual, July 20, 2000

``Recommendation: Undertake a full-scale reassessment of anti-drug 
strategy at home and abroad, with a view toward devising a more 
effective and better coordinated approach that our neighbors will be 
able to support as allies. This might include streamlining and 
clarifying the chain of command regarding narcotics policy, 
recalibrating the increasing imbalance in Latin America and the 
Caribbean between the U.S. military and civilian law enforcement 
institutions in the drug war, and pursuing options related to an annual 
hemispheric `cooperation' certification process proposed at the 
Santiago Summit.''

        North-South Center
        The Case for Early and Sustained Engagement with the Americas: 
        A Memorandum to the President-Elect and His Foreign Affairs/
        National Security Team, December 2000

``The OAS, with strong support from the United States, has now 
developed a promising multilateral procedure for assessing anti-drug 
efforts by every nation in the hemisphere. Replacing U.S. certification 
with the OAS procedure would enhance cooperation regionwide--and should 
be a high priority for the new administration [in] Washington.''

        Inter-American Dialogue
        A Time for Decisions: U.S. Policy in the Western Hemisphere, 
        December 2000

``At an absolute minimum, we should immediately end the arrogant and 
hypocritical congressionally mandated annual `certification' of Latin 
American countries by which we judge how well they are fighting our 
drug use problem.''

        William Ratciff, Hoover Institution
        Undoing ``Plan Colombia,'' December 27, 2000

``Certification is bad drug policy, bad foreign policy, and bad for our 
national conversation on both. First, it sends mixed signals to other 
countries about the rewards or punishments for their efforts in the war 
on drugs. Second, while cast as a means to increase cooperation, the 
process repeatedly fosters conflict. Third, and most importantly, 
certification symbolizes and reinforces a misguided broader U.S. 
international drug policy that aims to stop the supply of illegal drugs 
from entering the United States.''

        Bill Spencer, Washington Office on Latin America
        Failing to Make the Grade: The Case Against U.S. Drug 
        Certification Policy, February 1999

``Now the theory of the certification may be fine, but I think the 
practice is seen primarily as one of threatening punishment, which 
seems to me a dubious way to solicit voluntary and enthusiastic 
cooperation. If the threat is followed by actual decertification, it 
builds enormous hostility and resentment generally, not only in the 
decertified country, which, again is hardly conducive to the goals we 
are pushing.''

        General Brent Scowcroft, National Security Advisor to President 
        George Bush Sr. Hearing before the House Committee on 
        International Relations, April 29, 1998

``The primary measure of success for the United States has been 
reductions in foreign opium, coca and marijuana production. Reductions 
would presumably lead to higher drug prices in the United States, which 
in turn would prevent new drug use and drive addicts into treatment. 
However, annual worldwide opium production has doubled in the past 
decade, while coca production has nearly doubled . . . The 
certification process--by focusing on one aspect of often complex 
bilateral relationships--can distort the management of U.S. foreign 
policy.''

        Drug Strategies
        Passing Judgement: The U.S. Drug Certification Process, 1998

In a letter to Senator Christopher Dodd supporting legislation to 
suspend certification: ``Wanted to confirm that the Administration 
supports the Dodd-McCain legislation on international drug cooperation. 
Believe your thinking supports U.S. drug policy by recommending a 
mechanism that would allow us to make fundamental improvements in the 
way we cooperate with major drug producing and transit countries. At a 
minimum, your bill promises to remove a major cause of foreign policy 
friction, especially with Latin American and Caribbean countries . . 
.''

        Barry McCaffrey, then-Director of the Office of National Drug 
        Control Policy, July 16, 1997

In a letter to Senator Christopher Dodd supporting legislation to 
suspend certification: ``We believe your amendment would allow the 
Administration to develop and implement a new multilateral strategy to 
stem the flow of illegal narcotics. We believe the passage of this 
amendment will lead to a more effective multilateral effort in the war 
against drugs.''

        Samuel L. Berger, then-National Security Advisor to President 
        Clinton, July 16, 1997

``The criteria are vague and inconsistently applied, while the 
punishments are often more apparent than real. More important, the 
process itself is corrosive in its effects on U.S. relations with other 
countries, which often have a complex of problems that cannot be 
effectively addressed by this type of intervention.''

        Council on Foreign Relations
        Rethinking International Drug Control: New Directions for U.S. 
        Policy, 1997

``The certification process whereby the U.S. government rules on the 
anti-narcotics efforts of drug-producing or drug-transit countries is 
at the heart of (the drug) war. Certification is an arbitrary and 
hypocritical exercise.''

        L. Jacobo Rodrigues, Cato Institute
        Time to End the Drug War, December 3, 1997


</pre></body></html>
